<html>
<title> - ADDRESSING THE PROBLEM OF AFRICAN-AMERICAN MALE UNEMPLOYMENT</title>
<body><pre>[Senate Hearing 110-107]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-107
 
      ADDRESSING THE PROBLEM OF AFRICAN-AMERICAN MALE UNEMPLOYMENT

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2007

                               __________

          Printed for the use of the Joint Economic Committee



                     U.S. GOVERNMENT PRINTING OFFICE

35-863 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Charles E. Schumer, New York,        Carolyn B. Maloney, New York, Vice 
    Chairman                             Chair
Edward M. Kennedy, Massachusetts     Maurice D. Hinchey, New York
Jeff Bingaman, New Mexico            Baron P. Hill, Indiana
Amy Klobuchar, Minnesota             Loretta Sanchez, California
Robert P. Casey, Jr., Pennsylvania   Elijah E. Cummings, Maryland
Jim Webb, Virginia                   Lloyd Doggett, Texas
Sam Brownback, Kansas                Jim Saxton, New Jersey
John E. Sununu, New Hampshire        Kevin Brady, Texas
Jim DeMint, South Carolina           Phil English, Pennsylvania
Robert F. Bennett, Utah              Ron Paul, Texas

                Chad Stone, Executive Director (Acting)
             Christopher J. Frenze, Minority Staff Director
                            C O N T E N T S

                              ----------                              

                      Opening Statement of Members

Statement of Hon. Charles E. Schumer, Chairman, a U.S. Senator 
  from New York..................................................     1
Statement of Hon. Carolyn B. Maloney, Vice Chair, a U.S. 
  Representative from New York...................................     4

                               Witnesses

Statement of Dr. Ronald B. Mincy, Maurice V. Russell Professor of 
  Social Policy and Social Work Practice, School of Social Work, 
  Columbia University, New York, NY..............................    10
Statement of Robert Carmona, President and CEO, STRIVE (Support 
  and Training Result in Valuable Employees), New York, NY.......    12

                       Submissions for the Record

Prepared statement of Senator Charles E. Schumer, Chairman.......    37
Prepared statement of Representative Carolyn B. Maloney, Vice 
  Chair..........................................................    38
Prepared statement of Senator Sam Brownback......................    39
Prepared statement of Senator Hillary Rodham Clinton.............    40
Prepared statement of Senator Edward M. Kennedy..................    40
Prepared statement of Senator Barack Obama.......................    41
Prepared statement of Dr. Ronald B. Mincy, Maurice V. Russell 
  Professor of Social Policy and Social Work Practice, School of 
  Social Work, Columbia University...............................    42
Prepared statement of Robert Carmona, President and CEO, STRIVE..    47


      ADDRESSING THE PROBLEM OF AFRICAN-AMERICAN MALE UNEMPLOYMENT

                              ----------                              


                        THURSDAY, MARCH 8, 2007

             Congress of the United States,
                          Joint Economic Committee,
                                                     Washington, DC
    The Committee met at 9:30 a.m., in Room 562 of the Dirksen 
Senate Office Building, the Honorable Charles E. Schumer, 
Chairman of the Committee, presiding.
    Senators present: Senators Brownback, Klobuchar, and Webb.
    Representatives present: Representatives Hinchey and 
Maloney.
    Staff members present: Christina Baumgardner, Katie Beirne, 
Rachel Greszler, Colleen Healy, Jeff Schlagenhauf, Chad Stone, 
Justin Underwood, Robert Weingart, and Jeff Wrase.

OPENING STATEMENT OF HON. CHARLES E. SCHUMER, CHAIRMAN, A U.S. 
                     SENATOR FROM NEW YORK

    Chairman Schumer. The hearing will come to order. We're 
starting right on time because of everything that's going on, 
particularly in the Judiciary Committee today. I'm going to 
have to excuse myself at about 10 o'clock; where Senator 
Klobuchar will come and chair the hearing, so we want to get 
started quickly.
    I would like to welcome my guests here today; this is our 
first Joint Economic Committee hearing on employment. As you 
know, we have an obligation to have hearings on employment; but 
the issue that we have chosen today to talk about is the 
problem of African-American male unemployment. This is one of 
the most serious problems America faces, and given its 
seriousness, it doesn't get paid attention to in terms of 
focus, in terms of dollars, in terms of trying to improve this 
problem.
    I've been spending some time thinking about this, and let 
me say we can do a whole lot of things. So this is just our 
first hearing and our first foray, but we're going to try to 
make this issue in the new Congress a serious issue that the 
Congress grapples with, and I'm going to do my best to make 
that happen.
    I want to thank our witnesses for being here today. I also 
want to thank both Senators Obama and Clinton, who have asked 
permission to submit statements for the record; and without 
objection, their statements will be made part of the record.
    Today our focus will be on the growing crisis of 
joblessness for young African-American men. The crisis is 
profound, persistent and perplexing. Both across the country 
and in my home State of New York, far too many Black men are 
facing difficulty finding and keeping work. The numbers are 
staggering, and I don't use that word lightly; and they are 
getting worse, particularly for young Black men.
    Consider these statistics: In 1999, 65 percent of Black 
male high school dropouts in their twenties were jobless. In 
other words, not looking or unable to find work. So 65 percent 
sounds profoundly deep and bad. By 2004, the share had grown to 
72 percent--72 percent jobless. This compares to 29 percent 
White and 19 percent Hispanic numbers for the same high school 
dropouts. That's profound. Something is wrong and we have to do 
something about it.
    In inner cities, more than half of all Black men do not 
finish high school. Even when you consider high school 
graduates, though, half of Black men in their twenties were 
jobless in 2004. So we tell these young men: Work hard, 
graduate from high school, and your career will be much better 
off. And half of them can't find jobs. That's the bottom line 
here.
    To make matters worse, incarceration of young Black men is 
at historic highs. A Black man with only a high school diploma 
has a 30 percent chance of having served time in prison by the 
time he turns 30. Without a high school diploma, his likelihood 
of having been incarcerated jumps to 60 percent. In fact, a 
Black male in his late twenties without a high school diploma 
is more likely to be in jail than to be working. How can we in 
21st Century America countenance that?
    These numbers take your breath away. These numbers should 
cause national alarm and demand a national solution. One reason 
this crisis is perplexing is because it is playing out against 
a backdrop of relative economic success and unprecedented 
historical advances for many sectors of our Nation's African-
American population.
    Obviously we know the stories of highly successful Black 
men and women. I'm particularly proud that in my city of New 
York we now have three Black CEOs of major companies; Richard 
Parsons of Time Warner and Stan O'Neal of Merrill Lynch, and 
Ken Chenault of American Express. Of course we have Oprah 
Winfrey and Senator Obama here amongst us, Condi Rice, 
Secretary Powell--countless others. And more importantly, there 
are burgeoning Black middle class communities throughout the 
country.
    Come to Southeast Queens and you will see a beautiful 
middle class community--actually it's income is higher than 
White middle class people of the same basic level, a mile or 
two to the north--and these folks have made impressive gains in 
terms of workforce participation in just the last few years.
    So it's not that the situation is totally bleak, but you 
have this disconcerting paradigm of progress at the top and 
middle and not only lack of progress, but actual decline from 
what started out as a low point for people who don't have the 
education or the income.
    So given this contrast, it's sort of easy to lull ourselves 
into thinking things are OK; but we have to dig down into the 
numbers a little more to see how mistaken that belief is when 
it comes to Black males with less than a college education. And 
that's what we hope this hearing will do today; to give us a 
better handle on this problem and help us craft the right 
policy solutions to address it. Because one of the purposes of 
this hearing of course is to focus on and highlight the 
problem, but the ultimate purpose is to come up with some 
solutions that really work.
    There are many circumstances that have led us to this 
point, and many of them are familiar culprits: failing schools, 
dysfunctional families, high incarceration rates, overt and 
subtle racism, and the decimation of manufacturing and other 
jobs that typically afforded opportunities for young Black men 
to climb ladders and achieve a decent living.
    These political, cultural, economic and personal elements 
are high hurdles that are tripping up far too many young Black 
men. And while this is a sensitive subject, it must be 
mentioned as well. There's a subculture of the street that 
provides easy money and allows some to eschew personal 
responsibility. It is our job as leaders of society to not sit 
by passively and let that subculture claim another generation 
of young men.
    A longtime friend and community leader in Brooklyn, the 
Reverend Johnny Ray Youngblood said it best: ``Government has a 
moral responsibility to compete against and win against 
subcultures that are immoral, illegal, and really inhuman.''
    Reverend Youngblood is 100 percent right, but this much is 
certain: On the Federal level, there has been no comprehensive 
public policy response to this situation. None. None. We have 
left the problems of Black men largely to the market, which is 
ignoring if not exacerbating the problem.
    Our goal today is twofold. First, we must shine a bright 
spotlight on a problem that to my thinking has received scant 
attention, inadequate resources, intermittent focus, and poor 
coordination at the Federal level.
    Second, I want to explore legislation, policy and programs 
that will have a real impact in addressing this crisis. This 
Committee's challenge today and in the weeks and months ahead 
will be to put forward a series of policy recommendations aimed 
at addressing the crisis of young Black male unemployment.
    We will start by looking today at promising reform 
experiments at the State level, one in my home State of New 
York, and see what we can and should emulate on the Federal 
level. At the State level there has been much good news--or 
some good news; I don't want to overstate.
    After much trial and error, we have several successful job 
training models that work. In a few minutes we're going to hear 
from Robert Carmona of STRIVE, whose job training program has 
been replicated with great success throughout the United States 
and around the world. And I have to say when I visited STRIVE, 
it was one of the best days in my Senate career, because I saw 
people really being given hope, and not just abstract hope, but 
solid opportunity, and it worked.
    We will also hear from Dr. Ronald Mincy, who has helped 
design an earned income tax credit initiative for non-custodial 
parents in New York State that will help draw thousands of new 
workers into the labor force in coming years. You don't want to 
penalize fathers, and have the tax code and other things push 
them away from their responsibilities rather than towards it; 
and that's what Dr. Mincy has been addressing.
    So I really respect the two of you. I can't thank you 
enough because of the programs that you have come up with that 
really give us hope, give me hope on a problem that really 
bothers me, and I think should bother all of America.
    With that, our task is now an important one. We have models 
that work. The old Shibboleth, ``Oh, well, there's nothing you 
can do; government isn't going to solve this problem. Or just 
have the economy advance in general, and everything will get 
better,'' when 72 percent of those who don't graduate from high 
school, young Black men don't have jobs, the advancing economy 
is not enough to do the job.
    And so, we do have some new models, and we're hearing about 
two of them today. There are others. And it's not just that 
they work in one place. One of the great problems is you find a 
program, whether it's in job training or health care or 
education, that works, but it's only because of the charisma or 
the intelligence or the qualities of the person in charge, and 
it can't be replicated. These programs can; obviously the 
earned income tax credit can, that's a policy. But the STRIVE 
program has been replicated across the country.
    So our task is going to be turning these local programs, 
models and ideas into national policies that can help us meet 
this challenge head on. I am dedicated to trying to get 
something done here. I feel passionately about this issue.
    And with that, I'm going to turn to the Vice Chair of our 
Committee, Congresswoman Maloney, to give her the opportunity 
of an opening statement, give the other members a chance to 
provide statements before we proceed to the introduction of our 
panelists.
    [The prepared statement of Senator Schumer appears in the 
Submissions for the Record on page 37.]
    Congresswoman Maloney, my colleague in New York.

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, VICE CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Representative Maloney. I thank the Chairman for his 
leadership in New York and for calling this important hearing, 
and I'm really thrilled to welcome our witnesses, Dr. Mincy and 
Mr. Carmona to talk about the issue of African-American male 
unemployment and what we can do to successfully reconnect this 
group of men to work.
    As Dr. Mincy points out in his written statement, this is 
not a new problem; but if labor forces and trends among young 
Black men continue to deteriorate, we run the unacceptable risk 
of losing a generation of them to the streets or prisons.
    More than 4 decades ago, Martin Luther King, Jr. spoke of 
the experience of many Blacks as ``languishing in the corners 
of American society.''
    While progress has been made since the March on Washington, 
unfortunately Dr. King's words still ring true today. For too 
many young Black men, now as then, it would be unwise to ignore 
the urgency of the moment. An array of forces such as poverty, 
lower educational attainment, discrimination, high 
incarceration rates, and the decline of manufacturing 
employment have all contributed to creating significant 
employment barriers for African-American men.
    The problem is vividly illustrated when you consider Dr. 
Mincy's point, that even at the height of the economic 
expansion in 1999, only 35 percent of Black male high school 
dropouts were working, and that figure fell to just 28 percent 
by 2004. The comparable figures for White men were 81 percent 
in 1999 and 71 percent in 2004.
    It's striking that an overwhelming majority of White male, 
high school dropouts are working even in the wake of a 
recession, but an overwhelming majority of Black male high 
school dropouts are not working, even in a strong economy.
    When robust economic growth in a tight labor market are not 
enough to move people into the work force, we have to look at 
what policies might help build a bridge to work for these men. 
Dr. Mincy has a new twist on the Federal earned income tax 
credit that has worked well to help work pay for young Black 
women. By following the lead of my home State of New York, 
increasing the level EITC for non-custodial parents who are 
meeting their child support obligations would provide a strong 
incentive for men to enter the work force, and would strengthen 
families by encouraging men to stay current on their child 
support payments.
    Mr. Carmona has a compelling personal story of success that 
makes his advice on this issue particularly relevant. The 
STRIVE model demonstrates the long-term commitment that we must 
make to personal development, job training, and career 
counseling, in order to break the cycle of detachment from 
mainstream society and poverty for so many of our young Black 
men.
    The ideas our witnesses put forth should be seriously 
considered; but the issue of reconnecting these youths to 
school must also be addressed. Our public schools need to equip 
all our children with the education and skills needed to 
succeed in an increasingly global economy; and I hope the 
Chairman will be able to explore this issue in depth at future 
hearings.
    Mr. Chairman, I want to thank you very much for calling 
this hearing and for your attention to this important problem, 
this challenge that we face. I look forward to working with 
you.
    Thank you so much.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 38.]
    Chairman Schumer. Thank you. And I just might say to all of 
the members of this Committee, we do intend it to be a resource 
for everyone, and if people want to have hearings on subjects 
such as the one you mentioned, Congresswoman, I'd be delighted 
to have other people chair the hearing, set up the hearings, et 
cetera. We have a great staff, and it's really available for 
everybody.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman, Vice 
Chairman. I appreciate the hearing, and particularly appreciate 
exploring this topic. I've got a full statement that I'll put 
into the record, but I appreciate the chance to be able to talk 
about a long-term problem that we're having in the United 
States economy; this is something that I've certainly seen and 
noticed, and we do need to be able to devise systems and take a 
very aggressive approach to try to change.
    I chaired the D.C. subcommittee last Congress, and am the 
ranking member this Congress. We were looking at these numbers; 
the D.C. economy is growing a lot, and yet the same issue that 
you're talking--the lack of employment within the African-
American community is reflected in DC as well. So you look and 
you see that there's a problem here or chains that people in 
the system are having difficulty breaking out of; a lack of 
education or whatever the issues may be.
    One of the things we looked at, and I hope one of the 
witnesses or both will address it, is the issue on family 
structure. We ended up pushing with Mayor Williams at the time, 
Eleanor Holmes Norton, the Delegate, marriage development 
accounts, to encourage people on public assistance to get 
married and to form family units. And I'd appreciate that 
discussion as well.
    I also have worked on issues like what we can do to help 
people that are on probation or coming out of prison systems, 
like the Second Chance Act. Hopefully we can get passed this 
Congress. We got close on the last one.
    I applaud the Chairman for holding a hearing on this very 
difficult structural problem to see if we can start finding 
some solutions and look forward to the witnesses testifying.
    [The prepared statement of Senator Brownback appears in the 
Submissions for the Record on page 39.]
    Chairman Schumer. Thank you, Senator Brownback.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Schumer, 
and thank you to our witnesses here for coming. You have to 
know that my background is as a prosecutor, and I represented 
an area that was primarily urban, with some suburban areas as 
well; so I saw firsthand the effects of unemployment in the 
African-American community, and I saw firsthand what happens 
when young men and women become disillusioned and lose hope, 
and have no possibility of advancing themselves, and sometimes 
fall into criminal activity.
    And it was clear to me when I looked at this issue, that a 
lot of our teenagers and kids who came into the juvenile 
justice system did so because they just didn't have hope and 
didn't have the possibility of jobs.
    And I always would remind people in our community when I 
went out that, we're not like a business, we didn't want to see 
repeat offenders. The best way that we can help kids and make a 
stronger community and save money in the criminal justice 
system is by making sure that there are jobs out there.
    So I think looking at how to create an economic even-
playing field has got to be the most critical thing that this 
Committee looks at. For years the economic policies in this 
country have benefited the wealthiest, while the poorest and 
middle class families individuals struggle to get by.
    Under the tax cut, enacted in the last few years; for every 
dollar someone in the middle class got, the wealthiest 
Americans got $111. When you lay that out to people, they know 
that that's not fair, that that isn't an even-playing field. 
Our economy in Minnesota is strong, but yet people saw that the 
future does not look bright if you don't have an even-playing 
field.
    Clearly a critical part of creating economic opportunity 
for all is addressing the racial divisions that still exist 
within the work force, particularly within the African-American 
community.
    And I'd like to hear from all of you; I think I don't need 
to tell you all of the statistics about the unemployment within 
the African-American community. I can tell you where I come 
from in terms of my job as a prosecutor and what I saw, and 
that I see this as one of the major focuses we should have in 
terms of moving things. When I get questions about why we have 
crime in this area, I think ``Well, if we had jobs in this 
area, it would make the difference.''
    So I thank you for being here on this critical issue and 
look forward to working with you.
    Chairman Schumer. Thank you, Senator Klobuchar.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. I would like to 
again reiterate my appreciation to you for having the openness 
to have such a wide variety of hearings under the rubric of 
this Committee.
    Gentlemen, I want you to know that this is an issue that I 
care very deeply about, and we're in the unusual situation 
right now in the Congress where I actually have four committee 
hearings and a meeting with the leader all at the same time 
this morning; and this is the hearing that I want to be at the 
most. I'm going to have to leave, but I want to come back. It's 
an issue that I have cared about my entire life, particularly 
my entire adult life.
    During the campaign, I spoke frequently about what I call 
the three Americas--the danger, and actually in many cases the 
reality of our country breaking apart into three different 
divisions along class lines in a way we've probably never seen 
before. The huge transfer of wealth that's happened at the very 
top; it's all documented.
    The danger to the middle class, the disintegration in many 
cases of the middle class in the age of globalization, combined 
with the internationalization of the economy, and the 
stagnation at the very bottom, raises the prospect, which 
worries me very much, that we actually would as a country end 
up accepting the notion that we would have a permanent 
underclass. There are such a large number of people in this 
country of many races and ethnic backgrounds who look up and 
say that the American system doesn't apply to them anymore, 
that they don't have access in a wide variety of areas.
    And part of that's education, which we're trying to look 
at, part of it is the implications of incarceration, and part 
of it is the barriers to employment. And a big part of it, 
something that I really want to try to focus on during my time 
here in the Senate, is what I would call second chances; I see 
that in your testimony today.
    One of the issues with respect to education is adult 
education. We have so many people in this country who, for a 
wide variety of reasons, maybe because someone got pregnant 
when they were 16 years old, maybe because they got in trouble 
when they were 16, or decided that ``I can leave school now and 
go get a job''; they go out and follow a trajectory in their 
life. This affects the way they treat their kids, because they 
don't have the same standing when they're talking to their 
kids.
    I would like to see, as much as I can, emphasis on finding 
those people and getting them into the educational system; and 
you have what someone might call a trickle-down effect on the 
kids, and the educational attitudes of people.
    The other issue that I feel very strongly about and I was 
gratified to see in the testimony here is the notion of 
freezing people out simply because they have been incarcerated 
at one point in their life, some of them at a very young age. 
Then once they're frozen out, then what do we do? What do they 
do? And how does that multiply our problems in our society?
    So I was very gratified, Mr. Chairman, to see the focus of 
these issues in these hearings this morning, and I look forward 
to participating with you. Thank you.
    Chairman Schumer. Well, thank you. And the first thing I 
want to do is thank all of my colleagues for being here. I 
think the passion with which each of the opening statements was 
made shows how important we think this issue is. And hopefully 
we just opened the door so that we can get this issue on the 
agenda, because again it is such an important issue, and the 
befuddlement I have is such an important issue stays so 
underground.
    I am going to make an apology in advance; thanks and an 
apology. I have the same problem as Senator Webb, a whole bunch 
of committee hearings which I knew about, but one of them on 
the U.S. Attorneys in the Judiciary Committee, which I'm in the 
middle of, is going to call me there for a brief while, and I 
really want to thank my colleague, Senator Klobuchar, who will 
temporarily chair the hearing while I'm gone; I have to leave 
in a couple of minutes and then I will be back.
    But I want to first introduce the panelists, because 
they're both such fine people who accept real models out there 
that we can help follow.
    Before my colleagues came in I mentioned, and I would 
recommend it, told Sam, to visit STRIVE in New York, which was 
one of the most uplifting days I've had as a Senator, to see a 
program really working, going right at people, no B.S., and it 
has an amazing success rate as you will hear. And the good news 
is it has been replicated in other places. So it's not just Mr. 
Carmona and his staff over at STRIVE in East Harlem who can do 
this, but this can be done around the country.
    And so maybe with that I'll introduce--I was going to 
introduce Dr. Mincy first, but I'll introduce--I'm sure you 
don't mind, Dr. Mincy--Mr. Carmona.
    Robert Carmona is the President and CEO of STRIVE National. 
It's an employment services program that we're going to hear a 
lot about in his testimony today, and I think we're going to be 
hearing a lot about later.
    As cofounder of STRIVE--he's held this position 21 years. 
Under his stewardship, the organization has grown from a 
community-based organization to an international network of 
service providers with sites in 17 cities as well as overseas 
sites in London, England; Derry, Ireland; Dunbarton, Scotland; 
and Tel Aviv and Haifa, Israel.
    Prior to his tenure at STRIVE, Mr. Carmona worked at a 
number of social service organizations, many of which are in 
New York; the Court Employment Project, where he served as a 
counselor for adolescents, Downstate Medical Center's Family 
Youth Center as an adolescent case worker, Greater New York 
Fund United Way, where he was the organization's assistant 
director of agency services at the City Volunteer Corps, and he 
served as the agency's senior planner. And then he went to 
Wildcat Service Corporation as the director of marketing and 
employee assistance program.
    He's on the board of a whole bunch of prominent agencies. 
I'm not going to list them all but some of them include the 
Episcopal Social Services, Self Help National Student 
Partnership, and the North General Hospital, as well as a 
founding board member of the Workplace Alliance.
    Dr. Ronald Mincy is the Maurice V. Russell Professor of 
Social Policy; and each has a different approach. One is an 
actual program that gets people back on the track to 
employment; you'll hear it has a remarkable success rate. The 
other is Dr. Mincy's program, which is a tax change that we 
could make that would help, too; and these are two parallel 
approaches. And that's why I wanted to have each of you here 
today and are grateful for your time.
    Anyway, so Dr. Mincy is the Maurice V. Russell Professor of 
Social Policy and Social Work Practice at the School of Social 
Work, Columbia. He teaches graduate courses on social welfare 
policy program evaluation and microeconomics. He has published 
widely on the effects of income security policy on child and 
family poverty, family formation, and child well-being, 
responsible fatherhood, the urban underclass and urban policy.
    Prior to joining the Columbia faculty, Dr. Mincy was senior 
program officer in the Ford Foundation's program for human 
development and reproductive health, where he developed the 
Strengthening Fragile Families Initiative, called SFFI. It was 
a Ford Foundation grant-making initiative working with Federal, 
State and local human service agencies to reform income 
security policies to enable low income mothers and fathers, to 
provide emotional, financial, and developmental support to 
their children.
    As a result of SFFI, Dr. Mincy is widely regarded as a 
critical catalyst for changes currently underway in the 
treatment of low income fathers by U.S. welfare, child support, 
and family support systems.
    He's been invited to speak and consult with donors, 
researchers, policymakers all over the globe. Dr. Mincy is a 
co-principal investigator for the Fragile Families and Child 
Well Being Survey, a birth cohort study of children born to 
unmarried parents, which is nationally representative of births 
in large cities; and his most recent book, ``Black Men Left 
Behind'' examines the consequences of the 1990s boom for the 
less educated men.
    Mr. Carmona, Dr. Mincy, each of your statements will be put 
into the record in their entirety. Proceed as you wish. I've 
read your statements already, I think they're great, and I'm 
going to turn over the chair to my friend, colleague, and at 
this point someone--a friend in need is a friend indeed--
Senator Klobuchar.
    Senator Klobuchar. Does that mean I get the gavel?
    Chairman Schumer. You do.
    Senator Klobuchar. Excellent.
    Chairman Schumer. May it happen more in the future.
    Senator Klobuchar. All right. Dr. Mincy, do you want to 
begin? Or Mr. Carmona.
    Dr. Mincy. That's the way we lined it up.
    Senator Klobuchar. OK. Excellent.

STATEMENT OF DR. RONALD B. MINCY, MAURICE V. RUSSELL PROFESSOR 
  OF SOCIAL POLICY AND SOCIAL WORK PRACTICE, SCHOOL OF SOCIAL 
            WORK, COLUMBIA UNIVERSITY, NEW YORK, NY

    Dr. Mincy. First of all, good morning, and I'd like to 
thank the Committee for holding this important hearing on the 
unemployment problems of Black men, and for inviting me to 
testify on this very important subject.
    Recent labor market reports show that unemployment rates 
among Black men are at about 7 percent; twice the national 
average. These data indicate that among those who are available 
and looking for work, Black men are twice as likely to fail 
than the average American.
    My testimony argues that the official unemployment 
statistics only begin to scratch the surface of the problem, 
because they ignore discouraged workers who want to work, but 
who stop trying when the labor market softens, and those who 
are unavailable because they are institutionalized.
    Since incarceration rates have risen in recent decades, and 
these increases are largely driven by policy, it's important to 
incorporate incarceration in our assessment of employment among 
Black men.
    Of Black men between 22 and 30 years old, 5.7 percent were 
incarcerated in 2004. If you focus on those who are high school 
dropouts, who are overrepresented among the incarcerated, we 
reach a figure of 35 percent.
    So in my testimony, I focus on the success among Black and 
other less educated men in finding jobs before and after 
accounting for incarceration.
    The employment to population ratio data is highly related 
to the unemployment data. In 1999, 70 percent of Black men 
between 22 and 30 years old, who had not attended college, were 
employed; but by 2004, only 63 percent were still working.
    Declines over the same period for White men were from 88 to 
82 percent. So the official statistics show that Black men are 
much less successful at finding jobs than their White or 
Hispanic counterparts.
    However, after adjusting for incarceration, we find that 
only 56 percent of young Black males who did not attend college 
were employed in 1999, and by 2004, that proportion had fallen 
to 50 percent. By comparison, 85 percent of young White men who 
had not attended college were employed, and by 2004, that had 
fallen to 79 percent.
    Because fewer than half of young Black men graduate from 
high school, and high school dropouts are overrepresented among 
those in our Nation's prisons and jails, it's important to 
focus on the high school dropout population. After doing so, 
the picture becomes really alarming.
    At the peak 1999 performance of the economy, only 35 
percent of Black male high school dropouts were employed, and 
by 2004, that proportion had fallen to 28 percent. Comparable 
figures for White men were 81 percent in 1999, and 71 percent 
in 2004.
    This does present, then, a truly alarming picture of the 
employment prospects of Black men in this country. Congress, 
however, made four important changes. During the boom period in 
the 1990s, that were very important in achieving welfare reform 
successes, which are for me the critical example we should 
follow.
    First of all, Congress increased requirements on States to 
establish paternity and child support orders, and required 
more, non-custodial parents to support their children. This was 
the right thing to do. However, Congress also provided funds 
that allowed States to use their authority to require fathers, 
who could not pay their child support, to participate in 
employment programs.
    We still have the requirements, but we no longer have the 
enablements, because the funding that supported the employment 
and training programs was eliminated in the 2001 budget.
    Congress also created the Workforce Investment Act, which 
broadly improved access to employment and training programs; 
however, this made it much more difficult for disadvantaged 
workers to access services.
    Thirdly, Congress created the Youth Opportunity Grant 
programs, which provided education, youth development and 
training programs for young people living in high poverty 
areas, which was critical for African-American men; but again, 
we eliminated this program in 2003. And finally, we provided a 
generous earnings subsidy called the earned income tax credit; 
but only a small credit goes to single men. Most non-custodial 
parents look like single men with respect to the Tax Code.
    To turn this situation around, we will need money, 
patience, a multi-generational perspective, and responsible and 
reasonable policies. We spent $50 billion annually to achieve 
the successes in welfare reform, and that took some 30 years to 
do. Welfare-to-Work began in 1967; 30 years later we figured it 
out.
    So, in order to achieve some successes in this area, we 
will need to increase funding for the Job Corps, the most 
rigorously evaluated employment and training program. We must 
also restore funding for the Youth Opportunity Grant program, 
which was reaching young African-American men and others in 
high poverty areas, but was zeroed out before we really 
evaluated the program and learned how successful it was.
    And finally, we need to continue encouraging and demanding 
responsibility of fathers. However, we also need to enable them 
to support their children, and we can do that preferably by 
establishing them as a priority group for WIA funding by 
amending the legislation to establish a national non-custodial 
parent EITC so that men, as well as women, who are meeting 
their child support obligations are given a work incentive 
which encourages and enables them to work.
    And finally, we need to make child support orders proof 
that a man has a child so that he can claim the earned income 
tax credit--and I see my time is exhausted--I hope that we'll 
have more time to discuss these recommendations in detail. 
Thank you.
    [The prepared statement of Dr. Ronald B. Mincy appears in 
the Submissions for the Record on page 42.]
    Senator Klobuchar. And thank you Dr. Mincy.
    Mr. Carmona.

  STATEMENT OF ROBERT CARMONA, PRESIDENT AND CEO, STRIVE, NEW 
                            YORK, NY

    Mr. Carmona. Thank you. I begin by thanking the Committee 
for both the opportunity and privilege to appear before you 
today.
    One thing I must mention, that in my testimony, half of the 
credit goes to my colleague, Steven Redfield. He's one of our 
in-house writers, and I wanted to make sure I acknowledge that.
    A lot of what I describe today is not only based on 
experience through my work, but, is also of a personal nature, 
as I am an ex-offender, an ex-substance abuser. As one of four 
siblings raised by a single parent in New York City Housing 
Authority project, I begin with the following:
    My mother was certainly able to teach me right from wrong; 
she could clothe me, feed me, house me. What she could not do 
was teach me how to be a man.
    This phenomena in our communities of single parent heads of 
household, primarily headed by women, comes at a price to our 
communities. We have a generation of young men that seek to 
define their manhood by what they observe on the street.
    For me personally, this became the guy with the biggest 
car, nicest clothes, most beautiful women, etc. Additionally, 
the larger society keeps sending us messages. It's amazing to 
me that in our society we always talk about the impact of the 
media but we don't necessarily concentrate on that as it 
relates to young Black men.
    The messages are contradictory. Society wants to talk like 
me, dress like me, rap like me, but certainly does not want to 
be me. The former I derive from television, movies, the music 
industry, et cetera. The latter is the result of my day-to-day 
existence. I'm followed wherever I go, viewed with suspicion, 
in any interaction below 96th Street. On guard whenever a cop 
car passes me, no matter what I may be doing. In schools, I'm 
made to feel dumb and not worthy of educational attention. And 
finally, I move from grade to grade when I know I haven't done 
the work.
    One of the things that all our teaching over the years 
informs us of is that these folks need support. There are so 
many barriers that they're challenged with and one of the 
things that never comes to mind is that work is a learned 
trait.
    I can recall as a child, that I didn't know where my mother 
was going; she ended up being a nurse, but she would disappear 
to this mysterious thing that they call work, and every Friday 
I would get a milkshake. So I equated work with stuff.
    We've created a generation of individuals that don't make 
that connection. We talk about the skill development that 
people need, the educational attainments that they need in 
order to succeed, and that's all valid.
    But one of the things that people never speak about is that 
emotional thing that takes place in any job interview; whether 
you're applying to be a CEO or a janitor; and that's that the 
person that's interviewing you has to have some positive 
sentiment towards you.
    We, in fact, have a generation of young men--and ladies to 
a lesser extent--that have no understanding of the culture of 
work. One of the things that STRIVE was predicated on was going 
after those attitudinal components that make up a good worker; 
those kind of features that one has to personally excel at.
    Over the years what we've seen is a disinvestment in 
education and also in support services. In education it comes 
out that when we first started STRIVE 20 years ago, I could 
literally take a young man and put him in the back office 
operation of a bank or a law firm, and he could actually grow 
to a living wage in that occupation.
    Now they need a secondary intervention; the first 
intervention was attitudinal, entry level placement, 
demonstrate that they've internalized the work ethic, and then 
bring them back for a bigger dollar investment in skill 
development.
    I've been asked if the clients have gotten different. I 
said I don't think the clients have gotten different; I think 
that the educational disinvestments and the social support 
disinvestments are really telling for us.
    There is, I think, a silver lining. This may apply to some 
of the people in this room. There's going to be a mass exodus 
of retirement baby boomers, and there are a lot of skilled 
trade jobs, particularly in the larger urban areas, that these 
young men can fill.
    Unfortunately, they have to be at the tenth grade level in 
both math and reading in order to be able to get the skill sets 
they need for these kinds of occupations.
    One of the things that we found is that there's been about 
a 40 percent reduction in workforce dollars for this kind of 
work. What we've been able to do, thanks to the help of Ron 
Mincy and individuals like him, is piece together supports for 
these programs that we've been concentrating on, issues of 
fatherhood, child support and the like, and using those dollars 
to support our core activities.
    As we move forward, though, one of the things that we would 
certainly appreciate from this body and from the larger society 
is an acknowledgment that these things happen.
    And the thing that I would close with, and I think that 
people forget is, race matters. Race matters, and it matters 
big. And until we grapple with that and have a very candid 
conversation with that, then I'm not sure we can move forward. 
But I'm confident that an opportunity like this presents an 
opening for that.
    Thank you very much.
    [The prepared statement of Robert Carmona appears in the 
Submissions for the Record on page 47.]
    Senator Klobuchar. Thank you, both of you. And I'm going to 
allow my colleague here, Senator Brownback, to go first, and 
ask questions, and then I have a number of questions. I was 
impressed by both of your testimonies. Thank you.
    Senator Brownback. Thank you very much. I appreciate the 
chance to be able to go, and I appreciate the testimony and I 
appreciate the chance to delve into one of the most vexing 
problems I think we have as a society.
    I've worked on this issue a fair amount. I've spent a 
couple of nights in prison on my own volition, trying to look 
and see why is the thing working the way it is or not working 
at all.
    I've met with a number of people here in D.C.; and I 
appreciate some of the thoughts you've given us. I would like 
to get a little more point to it, if we could.
    What could we do? I take it from what you're saying, Mr. 
Carmona, that your mother did everything she possibly could for 
you, but there was one thing she couldn't do for you, was to 
teach you how to be a man. From what I gather, she worked hard 
and she just--she did everything she could do.
    What would you suggest that we do to reconstitute or to try 
to urge that family structure or policy signals we can send to 
try to help that family structure be reconstituted?
    Mr. Carmona. Well, as I mentioned earlier, Senator 
Brownback, there has been some disinvestment in social support 
programs. One of the things that young men need to see is 
living, breathing examples of individuals that came from 
similar circumstances that they had, and have succeeded.
    If organizations can be provided with the kind of support 
to embellish mentoring programs, internship programs and the 
like, and with industries' involvement, we can develop those 
kind of representatives in the community.
    It's a reciprocity, I think, of responsibility also. I 
think that it is the responsibility of Black men that have made 
it, if you will, to come back to their communities and be 
present and accounted for in terms of working with young men. 
And that also would require investment, because nonprofits need 
the fiscal wherewithal to reach out to individuals like this in 
a sustained fashion.
    Senator Brownback. Dr. Mincy, I want to pose the same 
question, but a little more pointed, to you. I've seen where 
you've worked on this topic for some period of time in the past 
as well.
    Last session of Congress, we put together a marriage 
development account in Washington, D.C. to put a savings 
account, Federal dollar matched by two raised private dollars, 
one by the couple if they were on public assistance, or 185 
percent of public assistance or below, if they'll get married.
    We were talking about, and a number of the leading 
institutions commented that we should use the welfare program 
and instead of taking assistance away if you get married, leave 
it in place. And even use, say housing assistance if you're low 
income, you get first in line for housing assistance. So even 
incentivize the public assistance program for family formation.
    What do you think of those concepts?
    Dr. Mincy. Senator, first of all, I thank you for your 
question and for your work in these areas.
    I think that we have to understand that we have a 
distribution of parents who are having children out of wedlock, 
some of whom transition to marriage and some of whom don't.
    So in the Fragile Families and the Child Well Being survey 
that was mentioned, we interviewed some 3,000 non-marital 
parents in 1996. Only about 15 percent of them ever 
transitioned to marriage. But when we asked them at the birth 
of their child, ``What would help them actually make decisions 
to marry?'' They talked not about the absence of a job as a 
barrier to marriage, or an absence of an apartment; they talked 
about, in effect, an absence of assets.
    ``Until we get savings, until we have a home, we're doing a 
variety of things to get there, but the absence of assets is 
really preventing us.''
    So I think some of these approaches would be appropriate 
for the least disadvantaged, for couples who have been living 
together, for couples both of whom are employed, and who are 
delaying the decision to marry until they get what appeared to 
be the markers of the American dream: Enabling them with a 
transfer, with an asset that said, for example: ``If you're 
living in public housing and you marry, we're not going to hold 
that against you. If you in fact marry, it will increase the 
level of income that's coming into your household.''
    I think for those couples who are, as it were, at the top 
of this disadvantaged population, these things will be very 
important.
    Senator Brownback. The thing that we talked about, was that 
in essence you would hold harmless the couple for getting 
married----
    Dr. Mincy. That's right.
    Senator Brownback [continuing]. For a period of 3 years. So 
that health care assistance, any of these programs--now there 
would be a pretty high price tag, when we looked at the initial 
dollar cost of this, it's a fairly high price tag to do this. 
But I looked at it and I thought ``This is ridiculous for us to 
do it the other way. You're basically forcing people not to 
form families.''
    Dr. Mincy. And I think there are many areas in our public 
policy that do have marriage penalties built into them. And 
again, for those at the top among the disadvantages, these 
things would be helpful.
    But I also think it's important to acknowledge that there 
is a large population for whom these things are not going to 
help, because within 2 years of the birth of the child, even 
before the child is born, many of these couples have broken up. 
Seventy percent--I want to nail that number in--70 percent of 
African-American children are born to non-marital parents, and 
only a few of them transition to marriage.
    So even to the extent that public policy can do things that 
enables those who are on the margin of marrying to do so, there 
is a broad population who won't benefit from marriage-
enhancement sorts of policies, but they still have children in 
common. Those children are going to need the support of both 
their mothers and fathers throughout their life course, and we 
have to worry about, ``How are we going to help these parents, 
who do not intend to marry, to collaborate around the raising 
of their children?"
    So I think these marriage inducement policies are 
important, but they are only a part of the solution; and for 
too long we've ignored those parents who will not marry, 
especially the fathers. We are not enabling them to meet their 
financial and other obligations to their children.
    Senator Brownback. Can I have another question? Do you mind 
here?
    Senator Klobuchar. No. Please go ahead.
    Senator Brownback. Because this is an excellent witness, 
and a chronic problem that we're trying to figure out.
    That number, 70 percent, in the sixties, early-sixties kind 
of before the major changes that we saw, demographic shifts as 
far as married couples in the society, that number in the 
African-American community, what was it prior to the sixties?
    Dr. Mincy. This is spooky, because I was teaching this 
yesterday in class.
    In 1950, about 57 percent of African-American children were 
born to unmarried parents, and that number----
    Senator Brownback. To unmarried parents.
    Dr. Mincy. Right, to unmarried parents, and that number has 
steadily increased to about 70 percent in the last several 
years; and it's declined a little in the last several. So now 
about 69 percent of African-American children are born to non-
married parents.
    So we've been in this space for decades, and I've been 
doing----
    Senator Brownback. If I could, because that's not what I 
understood the number to be prior to the big generational shift 
that took place in the sixties. The number I had seen was in 
the thirties.
    Dr. Mincy. No, sir, actually----
    Senator Brownback. Prior to the sixties.
    Dr. Mincy. I'm looking at the Blackboard in my mind, and 
it's been very high for decades.
    Senator Brownback. But has it been lower at any point in 
time?
    Dr. Mincy. Well surely. Sort of prior to the 1960s, but if 
you're thinking about----
    Senator Brownback. That's what I'm talking about, the 
period prior to the 1960s.
    Dr. Mincy. Yes, it would have been--marriage rates would 
have been higher among African-Americans, but we're thinking 
about a period after the migration from the South to the North 
after World War II, after the concentration of African-
Americans in urban areas; at that juncture you do get very high 
rates of non-marital births among African-Americans, and I 
think this is an issue that absolutely has to be addressed; it 
is being addressed.
    One of the helpful things that the Healthy Marriage 
Initiative that this Administration has pursued is, opening a 
conversation among African-Americans about why are we as a 
people tolerating this high rate of non-marriage among us, and 
the consequences for our children.
    That conversation is therefore underway. However, again, I 
want to emphasize that it's going to be effective for a small 
portion of the population.
    Senator Brownback. I hear your----
    Dr. Mincy. You have to worry about, what about those who 
don't.
    Senator Brownback. I hear your point.
    The rate has been substantially lower for the entire 
population prior to really the sixties mega change that took 
place, and it was substantially lower for the African-American 
community as well; and I do think there's an agreement or a 
system to be had here of working on this in the total, like 
we've done major bipartisan issues around here where you talk 
about the desires kind of of both parties of how would we 
address this? And one's going to probably emphasize family 
structure more, and the other's going to emphasize ``Well, what 
can we do to help into the workplace more?''
    I think there's an agreement to be had here, to move this 
forward. Because everybody recognizes this is a horrible 
problem for the society, for the country, for African-
Americans, and particular for African-American men. And we 
should address it.
    Dr. Mincy. Yes.
    Senator Brownback. And there's no lack of a will to do 
that, but I think maybe what we need to do is to really sit 
down at the table with ties loosened up and say, ``OK, here's 
what we can do to get this done.'' It's the sort of thing I did 
with your former colleague, Paul Wellstone, from your State on 
trafficking issues, where you gather each side together, and 
the thought there, and put together something that comes at a 
bipartisan approach to a big problem, which we could do.
    Madam Chairman, thank you very much for letting me talk 
about this.
    Dr. Mincy. Can I just make one other comment on this?
    I agree with you, but I also understand that if 35 percent 
of African-American high school dropout males are incarcerated, 
if the employment rate among those who are not incarcerated is 
in the 20 percent range, then who are they going to marry?
    So I think this really involves, again, the bipartisan dig-
deep sort of effort to deal with the health, the incarceration, 
the other causes----
    Senator Brownback. Absolutely.
    Dr. Mincy [continuing]. That deplete Black men from----
    Senator Brownback. That's why I mentioned the Second Chance 
Act. I don't know if you've had a chance to look at that. We 
got it almost through last Congress, I hope we can get it 
through this Congress; it has Administration support. But 
that's a big piece of the puzzle here.
    And there are people--we all have problems, but sometimes 
we're going to have to help some more than others to dig on out 
of them, and we ought to do it, rather than just kind of keep 
saying ``All right, well that's just the way it is.'' It isn't 
just the way it is. It can be different.
    Thank you, Madam Chairman.
    Senator Klobuchar. Thank you, Senator, and thank you for 
your offer to work on this in a bipartisan way with our ties 
off. I don't have a tie, but----
    Senator Brownback. I could say sleeves rolled up.
    Senator Klobuchar. But in any case, I do appreciate your 
comments and your interest in this issue, and being here today.
    As I was listening to both of you, I thought of two things 
that we'd worked on in the last 8 years in our county, and one 
was an African-American men's project for men 18 to 30, 
realizing that this was the key group that we wanted to focus 
on, with some of these family issues that the Senator brought 
up, and also with some of the issues with employment.
    And then there was another thing that sounds similar to 
STRIVE in what you talked about, Mr. Carmona. We have something 
called Minnesota RISE, started by a former General Mills 
executive. Minnesota RISE not only teaches job skills but also 
tries to turn around the work ethic that you're talking about, 
Mr. Carmona. It has amazing success rates.
    They did this by working with corporations in the Twin 
Cities. As you talked about, it was easier to place people 
years ago. It was also easier to get through some of these 
barriers that we're talking about, that makes it not only hard 
to marry, but makes it hard to get a job and to get placed 
somewhere.
    By working through this organization they've actually 
placed people that may have a record of some kind. So I want to 
explore some of the issues of the records in a minute, but I 
thought I'd start with just talking about the labor experiences 
and what you're seeing.
    First of all, I think Dr. Mincy talked about the 
differences between the African-American women's placement and 
African-American men's. Could you elaborate a little on that? 
What do you see as the causes of that?
    Dr. Mincy. First of all, I think it's really important for 
us to understand that we have been working on Welfare-to-Work 
for 30 years. So the programmatic innovations included a 
combination of work requirements, a substantial investment in 
an earnings subsidy in the earned income tax credit, and then 
the good fortune of history to have a booming economy--this was 
not a short-term policy success, yet it is one of the most 
important policy successes in the last 30 years.
    But it came about slowly, as a consequence of a great deal 
of trial and error and learning. It also came about as a 
consequence of having a funding stream that was working on 
Welfare-to-Work, reducing teenage pregnancy, and so on.
    So having people in the field, working with young women, 
over a period of 30 years who were rookies at one point and 
came to be executive directors at another, because they had an 
ongoing set of resources with which to work on the same 
population. This has not occurred with respect to the 
challenges of African-American men.
    About 10 years ago, it's sort of surreal; Rob and I were 
testifying before the House on this very same issue. We have 
seen funding related to the challenges of African-American men 
come and go. That has a consequence for capacity. Some of those 
community-based organizations, some of those professionals who 
run these programs are no longer in place. They don't have the 
lessons from 10 years ago, they don't have the capacity to 
develop junior staff; moreover, we have not carefully 
evaluated, unlike programs that work with respect to women, 
carefully evaluated programs, taken our lessons learned, taught 
them to the next generation and so forth.
    We were laughing as we were in the elevator; I don't have a 
lot of time to be about this again; I don't want to be back 
here 20 years from now, a little older, et cetera, a little 
grayer--we have to get into a place where we make this issue a 
priority, we put resources behind it, but we also undertake the 
ongoing execution, evaluation, learning, incorporating those 
lessons into subsequent rounds of programs until we get to a 
place where we're able to turn this--we have a lot of debris in 
the field of working with men as a consequence of this 
intermittent investment, and that's really part of the 
challenge that we face.
    Senator Klobuchar. I think that's a very good point, Dr. 
Mincy, because what happens, as you know, if there's a program 
that's funded and you don't see those kinds of results, people 
then get very hesitant about continuing funding. I think a 
piece of this hesitancy is that people want to see research 
that shows programs that actually have gotten results. Then the 
programs can be replicated and money spread based on what's 
working.
    Would you like to comment on that, Mr. Carmona?
    Mr. Carmona. Yes, I do want to comment, because in fact 
what we've seen over the last several years is, a deliberate 
disinvestment in programs that do work. For example, STRIVE was 
able to secure a roughly 3 to 4 million-dollar Federal grant 
from the Department of Labor to place and retain ex-offenders 
on jobs. The grant was for the national network, to place 700 
individuals.
    We not only exceeded the placement goal, we exceeded the 
retention goal as well as the recidivism goals for this group. 
At the end of that grant, we certainly expected to be 
considered for renewal, but it died after that. So with 620,000 
ex-offenders being released every year, so now there were 
619,300 left, and we weren't funded to continue the work.
    Dr. Mincy. Moreover, when such a thing occurs, we're not 
evaluating these programs, we're not going in there asking, 
``Why did this work? What about it worked, what about it didn't 
work?'' So that in the next round of ex-offender programs we 
jettison the things that are not effective and improve upon 
those that are.
    The same with the Youth Opportunity Grant program, which is 
an enormous disappointment. We had 36 high poverty areas where 
a lot of the African-American men who are the subject of this 
meeting were being reached prior to becoming fathers with youth 
development, educational investments and the like. We have not 
even completed the evaluation of that program in order to 
figure out how effectively it worked.
    So again, this is an ongoing challenge that we not only 
have to sort of try certain things and do experimentation, the 
research and development which is the work of public policy, 
but we've got to learn these lessons and stay at it long enough 
to find some success in the same way that we did with respect 
to welfare reform.
    Senator Klobuchar. I really appreciate your honesty about 
that, because--we can't hide from the race part of this as we 
go forward in this area. In the last few years I have seen that 
people are hesitant about government in some ways. On the other 
hand, I think this last election showed that people are very 
concerned about the unfairness of some, and really the 
immorality of the system and what's happening.
    So our job, in this area, is just to show them ``well, we 
know these things work, and we know where we can go.'' And I 
guess one of the things I wanted to follow up in that vein was 
the earned income tax credit. And you talked about it in your 
testimony and how you've seen that as helpful. What level of 
investment do you think is really going to work, and how should 
we proceed and go forward on that?
    Dr. Mincy. Well, I think there are a couple of things we're 
learning. First of all, even though the earned income tax 
credit in New York is just getting under way.
    In the first place, who should be eligible for the earned 
income tax credit? Initially the legislation in New York kept 
income eligibility at $12,000 or so, and there's much 
discussion that that's too low. I think the Federal legislation 
from Senators Obama and Bayh are also in that neighborhood, and 
they're much too low.
    What happened in New York was, the income eligibility level 
went up to $30,000, but the maximum amount of the grant is now 
$1,000. And as a consequence, many more men can be reached.
    So Rob Carmona can get a young man who has a substantial 
child support obligation, can get him a job at 16-20,000 
dollars a year so that he's just getting started in the labor 
market; but if he has $20,000 worth of arrearages, which is not 
difficult, he's not eligible for the earned income tax credit. 
He would not have been, under the Federal legislation that is 
being proposed.
    So I think the income eligibility level needs to be higher, 
and we can sort of balance the cost by maxing out the grant 
at--the same as the New York attempt to do so at $1,000.
    But the other thing that we're learning is very 
instructive. So it turns out that in New York, we now have--
there is a concern that men won't take up the earned income tax 
credit, that there would be an offer out there but there would 
be no take-up.
    What we're finding in New York is we have what are called--
tax assistance organizations in the community. Many men go into 
these organizations in order to get their taxes done at the end 
of the year, and when they go the workers are telling them 
about the New York State or non-custodial parent EITC, and 
asking them ``would you like to get it?''
    And so men are learning about these as a consequence of 
their contact with tax workers in the community; but it turns 
out that if they didn't know the social security numbers of 
their children, they think that they cannot, that they are not 
entitled to the EITC.
    So we have to figure out--now, we have huge firewalls 
between child support enforcement and everything else. The 
child's social security number is an important privacy issue. 
So we have to work out the kinks in this policy such that we 
get information to these men, who are applying for the EITC. If 
they have paternity established, if they have a child support 
order, they should be able to get the child's social security 
number and apply for this EITC to supplement their income so 
that they can continue to work.
    Moreover, why does he need the child's social security 
number at all? If he has a child support order, that in itself 
ought to be the primary--beside the income, the primary 
eligibility criteria to get the EITC and then to increase his 
work incentive.
    And finally, the other thing that we know is that we have 
data from demonstration projects in Wisconsin that show that 
earnings supplements do work for men. So I think we can avail 
ourselves of the transitioning of the baby boom generation, who 
is leaving behind skilled jobs with substantial earnings 
potential; move some of these younger men into that with the 
appropriate training and the like, but boost their earnings as 
a consequence of the EITC, and give them an incentive to work, 
and pay their child support, which is what we should be doing.
    Senator Klobuchar. Right. Just to summarize where you are 
in this, the idea would be to look at the amount and how much 
it is. We then have to look at this incredible red tape 
bureaucracy that isn't matching the reality when we have a lot 
of young men with child support obligations. How can we make 
sure that they know that they're still eligible for the EITC, 
and how we can we make it work for them.
    Dr. Mincy. If I could. The other issue is, the amounts of 
arrearages. I think we are approaching $100 million of 
arrearages in the child support enforcement system, much of 
which is uncollectable because the origin is men whose earnings 
are $20,000 a year or less.
    Senator Klobuchar. I've seen these.
    Dr. Mincy. This is pretty extraordinary. Much of it results 
from, part of the time these men were incarcerated, so 
throughout the time they were incarcerated, their child support 
orders were growing, growing and growing, with interest and 
penalties.
    So we have to also think about ways in which we can abate 
their child support arrearages over time. Reward them for being 
current on their orders; demonstration projects are underway in 
Connecticut and in Maryland to help men be responsible and meet 
their obligations to their children on the one hand, but also 
unburden themselves of this extraordinary debt on the other.
    Senator Klobuchar. There is one more thing, to add 
something we'd done out of our county, is the issue of making 
sure that the men stay involved in the lives of these kids, 
especially the young boys and how important that is and how you 
work that with the child support system, so you make sure 
that's still a priority.
    Dr. Mincy. I think this is critical. But you know, I think 
the glass is half empty and half full on this score.
    The children we have in our survey who were born to 
unmarried parents, we are now following these children who are 
5 years old. Fifty percent of them have frequent visits from 
their nonresident fathers who are not romantically involved 
with the mothers anymore.
    That 50 percent is great, that 50 percent of these children 
rarely see their fathers is a problem. The other question is: 
Do these men know what to do in order to increase the well-
being of their children? We also have not invested much in 
parenting programs that target men so that they know in their 
interactions with their children what improves child well-
being. So this is the other part of the puzzle.
    I think we can focus on the money, but there is also the 
child development that needs to occur, and the fathers can be a 
critical part of that.
    Senator Klobuchar. OK, Mr. Carmona.
    Mr. Carmona. Yes, just a quick comment.
    Ron and I had worked on this issue, I guess about 15 years 
ago, particularly around notions of child support and the like. 
And consequently when a young man gets out of the penitentiary, 
he is handed a bill that says he has accumulated $20,000 in 
arrearages.
    This consequence is frightening to him, and he knows that 
he can never pay that. One of the things we were able to 
develop with the assistance we got through the Ford Foundation 
was being able to go to child support authorities, and let's 
say that, I don't know, Rod Mincy had a $10,000 child support 
obligation. We were able to get the arrearages, the payments 
towards the arrearages as low as possible so that he could then 
begin paying the current amount, moving forward.
    Void of that, most men, when they're handed this bill, know 
they cannot get credit and feel like they cannot come to see 
their children bearing gifts. And that creates an even further 
rift between that individual and his children.
    With more support, organizations could develop the 
wherewithal to work with child support to ameliorate those 
situations; that's certainly been our experience at STRIVE.
    Dr. Mincy. Senator, when the Administration cut support for 
the Welfare-to-Work program, the money that supported 
organizations like STRIVE to do that work disappeared. So we 
want to incent men to work more with the income tax credit. But 
it turns out that organizations like STRIVE--because they've 
been working in this arena for a while--they're not worried at 
all about the social security problem. They're able to help 
their clients work through it.
    They also have developed, over the past 10 years, the 
capacity to go into court with the father, to help him 
demonstrate how much income he has. When the judge sees that, 
that he is willing to work, he is enrolled in a program, the 
judge then has the ability to hold him accountable but to, as 
it were, release him to the agency which will help him find a 
job and be accountable for his child support.
    But when we removed that money in 2001, we left these men 
essentially to fend for themselves. As a consequence, when they 
lose a job, they don't know, it doesn't occur to them: ``Oh, I 
ought to go in and have my child support order modified.''
    So the absence of resources in this field means that the 
capacity to work with these men, to help them as it were, 
manage their obligations to their children responsibly, and to 
intervene with courts and various public agencies is absent, 
and this is one of the reasons why we are growing arrearages at 
this extraordinary clip; and many of these men feel that, 
``Listen, I'm never going to get out of this. Therefore, let me 
sell stuff under the table, let me do this, let me do that.'' 
They don't require work experience. Not surprisingly, they get 
to 40 years old and they've never spent much time in the formal 
labor market and as a result, their earnings are very low.
    So we've got to arrive here but we've got to hang out here 
long enough to build these organizations to do the job.
    Senator Klobuchar. So the pilot programs, are there some 
worth looking at in this area?
    Dr. Mincy. There are actually many. And in addition to 
that, there are several organizations around the country which 
have been doing this work for 15 years. Organizations based in 
Washington, DC, like the National Partnership for Community 
Leadership, that have testified before this body 10 years ago.
    There are many organizations who stand ready to help our 
policymakers, first of all, learn about what are best practices 
in this field; learn about what sort of ideas need to be tried, 
what ideas need to be discarded. And where legislation needs to 
be modified in order to get this done. And it would be no 
problem for me to direct members of your staff to these 
organizations.
    Senator Klobuchar. OK. Thank you very much.
    I'm going to turn it over now to Representative Hinchey, 
who was kind enough to come over here, and join us from the 
House side. And I still want to follow up with some questions, 
as I said initially about the issue of the criminal records and 
what can be done.
    So Representative Hinchey, thank you for joining us.
    Representative Hinchey. Well, Senator, thank you very much. 
And I'm going to anticipate your questions and listen to them 
carefully, and the answers as well. And please excuse me for 
being late. But I wanted to be here for this hearing, to hear 
some of the things that you had to say; I wish I was here a 
little bit earlier.
    But I appreciate particularly what you said about the 
Welfare-to-Work program, which is--the elimination of that 
program or the reduction of it has been very, very critical. 
The whole problem of welfare reform was sort of based upon the 
idea that you had to have some means by which to transport 
people from the welfare circumstances into the general economic 
circumstances; find a job, get to work, participate in the 
economy, elevate yourself, your stature in society, your 
contribution to your family and your community.
    So that's something that really has to be addressed, and 
really has to be addressed aggressively.
    The National Partnership for Leadership in New York does a 
good job, but they can only do it in a certain dimension; 
they're very limited in their capacity to deal with this. But 
nevertheless the people that they work with are influenced very 
positively as a result. But we need a lot more.
    Dr. Mincy. I think you're absolutely right, Senator----
    Representative Hinchey. Congressman. I'm just a----
    Dr. Mincy. Congressman, excuse me.
    Representative Hinchey. Yes, I'm just a congressman.
    [Laughter.]
    Dr. Mincy. But I also think that, again the removal of 
these Welfare-to-Work funds at a juncture--we have amnesia in 
this particular field. The best evaluated demonstration that 
worked with fathers is a demonstration project called Parents 
Fair Share, that was launched in the early 1990s.
    The early reports of Parents Fair Share indicated that the 
demonstration project increased compliance but it didn't 
increase employment. That's the headline that most of the 
public remembers.
    It turns out that a subsequent report shows that these 
programs increase compliance, but they also increase earnings 
for men who are high school dropouts, and for men who don't 
have much work experience. We forgot that.
    And therefore, in thinking about how to replicate and build 
on these programs, it appears that that's where we should go. 
We should go toward the programs that work with exactly the 
population we're talking about right now. The less advantaged 
men who are unable to find jobs on their own so that we can 
increase their earnings, which they've been able to do, and 
then pay their child support payments.
    But again, our failure to stay in this field long enough to 
generate some lessons and apply them in the field is what gets 
us to these extraordinarily high unemployment rates that we 
have today.
    But fortunately you have a few programs. Rob Carmona won't 
say this for himself: he is one of the few workforce 
development providers that have been working with these low 
income men and incarcerated men for 25 years or more. And 
because there are so few of them, as it were, old heads to 
raise another generation of practitioners to learn what he's 
learned; and therefore we don't have the capacity in the field 
to do this work well.
    Mr. Carmona. Earlier the Senator mentioned the Second 
Chance Act. In fact, that act was predicated on one of our 
STRIVE sites in San Diego, Second Chance Drive.
    As I look around the country, though, and we mentioned that 
STRIVE is in 17 cities--this notion of ongoing sustenance for 
the service capacity of organizations has suffered over several 
years. I would submit that of the 17 cities that have sites, 
and in some cities are multi-site, are probably all operating 
at a deficit level.
    To the extent that this body can take whatever comes out of 
these hearings, and incorporate the things that Dr. Mincy 
articulates and enhance the capacity of our organization, it 
would certainly be helpful. I think that we have the answers.
    Also want to segue backwards. There was some mention about 
education earlier. There's been some discussion about those 
that do stay in high school still not having an understanding 
of the connection between high school and work; and there has 
been discussion about having a more kinder and gentler STRIVE 
in the high schools so that there's a more seamless transition 
between high school graduation and what is expected from us in 
the workplace.
    Currently, schools do not have any curricula that kind of 
enlightens young people about the culture of work. And I think 
that needed mentioning.
    Thank you.
    Senator Klobuchar. Thank you.
    Representative Hinchey. We dealt with a lot of problems in 
the 1960s, and a lot of the dealing with them in the 1960s was 
effective; it wasn't all effective, but a good part of it was 
effective. And we began to see a whole lot of progress.
    But since those issues have been abandoned, the 
circumstances have gone down very decidedly. For example, as 
you were pointing out, if you don't have a connection between 
education and your future in the minds of a lot of kids who go 
through crowded educational situations where the classes are 
too large and the equipment that they have is old and outdated, 
even the books are old and outdated; they don't see--and as a 
basis of that experience--how that is going to affect the rest 
of their lives.
    So that kind of connection really has to be made, and we 
need to establish some way in which to do that--at the same 
time that we need to do an awful lot of work to improve our 
educational system and the basic infrastructure of education, 
particularly in urban areas.
    But, in a lot of rural areas also, across this country, 
where lower income people basically live; whether it's in 
cities or out in the country someplace, they really need to be 
addressed.
    Dr. Mincy. But I also think the world has changed since the 
1960s, and that's part of the challenge. We are talking about 
the high unemployment rates of high school dropouts.
    So when I go home this afternoon, I'm going to get on a 
train and take a nap, and I'll wake up in Trenton. And as I 
pass Trenton, there's a bridge. It says: ``Trenton Makes and 
the World Takes.''
    We had a manufacturing base that was able to employ men 
without a high school diploma at very decent wages, and as a 
consequence, they could support themselves and support their 
families. Gone.
    And as a consequence, the ticket to the middle class now is 
something more than a high school diploma. And so we have to 
figure out ways to provide men and women who--but we're making 
progress again, and this is the extraordinary success of the 
1990s. We had an extraordinary economy, we had a policy that 
made sense, and we got the job done.
    Here I think we have some structural opportunities in the 
aging of the population, and we need to put the policies 
together so that these men can join the mothers of their 
children and support them well.
    Mr. Carmona. Ron and I keep outdoing each other on pointing 
out the other's accomplishments----
    [Laughter.]
    A number of years ago, this was when Ron was still at the 
Ford Foundation--one of the things that he was able to craft 
for STRIVE was a secondary investment in the individuals--I 
call everybody a kid if they're under 40--that go to STRIVE. 
And we called it at that time the Access Support Advancement 
Project.
    The preponderance of our young kids--Black men, are not 
going to go to college; that's a given. But what we were able 
to do through the support of the Ford Foundation was actually 
engage community colleges to take these young men, in large 
part ex-offenders, and kind of take the fat out of the subjects 
of computer assembly and repair, and just have them concentrate 
on the technical aspects of that.
    And then we formed a triumvirate partnership with a group 
called Technology Service Solutions, a subsidiary of Xerox and 
some other company. The long and short of it was that these 
individuals were able to, if I remember correctly, have earning 
increases in a year of over $4,000.
    The challenge then became translating that to policy. And, 
you know, the Workforce Investment Act did not enable agencies 
to make that kind of deep-dive dollar investment in 
individuals. And sometimes people look at the number that it 
takes to invest in something like that, and they get astounded 
by the number.
    But the consequence is, or the flip side of that is, we 
have no problem paying $40,000 a year to incarcerate that same 
individual.
    Senator Klobuchar. Thank you. Thank you, Representative 
Hinchey.
    Just a follow up on incarceration. In my county, 
prosecutions are divided; prosecutors at the county level work 
only on felonies. Prosecutors do not prosecute misdemeanors 
except with juveniles.
    But one weekend every few months, we had a sort of day of 
atonement or a day of forgiveness. We started this a few years 
ago for misdemeanor warrants and similar complaints where 
people--and it was mostly African-American young men--could 
show up on a Saturday and do some community service--work squad 
stuff--to get their records straight.
    This program wasn't for felonies, because as you know, 
there's a lot of lower level felonies that can stay on records. 
But it was really quite a sight to see all these young men 
showing up on a Saturday to stand in line to get their records 
straight.
    So I see that as, sad as the story is, I see it as hope. 
Because as you said, sometimes these things just mount up to 
the point where one more traffic ticket or one more minor thing 
can cause someone's life to fall apart. Because then you don't 
have a car, the car gets impounded, so then you can't go to 
work and then you lose the job.
    So the idea with this program was to look at the problem as 
what's best for a community, and work towards that. We didn't 
get a lot of heat from the community for doing that, because 
there was some kind of a punishment; there was community 
service.
    I know, Mr. Carmona, in your testimony you mentioned that 
some of these programs don't really work with the employers. 
You even mentioned the Federal bonding program and some of 
these other things. I asked both of you, what do you think 
would work as we look into this very difficult area. Employers 
want to know people's records. But yet at the same time, these 
records can become such a barrier for people to get work.
    I find this to be one of the most difficult issues we're 
confronting right now. It is certainly politically difficult. 
If you could give us some ideas that are pragmatic, knowing how 
are we going to move this in a way that you're going to get 
people behind you to do it.
    Mr. Carmona. Well, it's interesting, Senator, because I 
think there are laws on the books that preclude excluding ex-
offenders from certain opportunities; it's just this stigma 
that people carry in the larger society that I'm not sure we 
can legislate away.
    I think that to the extent that we can get the larger 
society to change their perception of what the ex-offender is 
or may be could help. The way we work with it at STRIVE is, to 
work with employers that are ex-offender friendly, if you may, 
and try to identify those.
    We have to do the hard work, at least from my standpoint, 
on the client side. And we train our clients when they go out 
on these interviews to be very candid, of course, about their 
criminal history. And they may make a comment like, ``If I was 
to read this, I wouldn't like this guy.'' ``But let me tell you 
who I am now'' and the presentation has to come from the 
individual. And that likability factor I mentioned earlier has 
to kick in where he gets a buy-in.
    The other thing, too, is--and this is a pet peeve and I've 
got to throw it in because I got a chance to mention it--in a 
lot of States, New York being one in particular, we've stopped 
inmates being able to go to college while inside. Which to me 
is just--I don't know--nuts? When all the indicators show that 
for every year of college, the recidivism rate drops 
precipitously. With 4 years of college they come out and the 
recidivism rate drops 7 percent.
    There are some colleges that still operate in the prison 
system but they pick up the whole tab; they're not eligible for 
BEOG (Basic Educational Opportunity Grant)/TAP (Tuition Award 
Programs), things like that. If the Federal Government could 
change that, where they become eligible for those grants again, 
it could go a long way to changing the mindsets at the State 
level.
    Senator Klobuchar. Very good.
    Dr. Mincy.
    Dr. Mincy. My own thoughts about this are first of all, we 
do have a record of successful programs that work with ex-
offenders; and there is expertise again that I could share with 
your staff about where to find them.
    But there is also a sort of a strategic issue. Three years 
ago, when I moved into Harlem, one day when my wife and I were 
coming home from church, there was a sign posted on my door. We 
went upstairs to see the sign and it was an advertisement for 
low cost discount fares to prisons.
    In other words, there are so many ex-offenders who live in 
my neighbor, that it's profitable for a business to offer my 
neighbors and myself low cost fares so that we could go to 
prison to visit our sons, our uncles and the like.
    So ex-offenders are coming back in concentrated ways to 
minority communities. Those 600,000 prisoners who are being 
released a year are arriving en masse in several selected areas 
in every major metropolitan area in this country.
    There is a project that is going on now that's called the 
Million Dollar blocks, and the purpose of it is to document 
where these communities are around the United States that are 
receiving disproportionate numbers of ex-offenders. Those ought 
to be economic development sites.
    Those ought to be sites where the Youth Opportunity Grant 
Program is revived, so that the communities who are receiving 
this mass of ex-offenders in the community, who are in need of 
economic development so that they can offer these men 
opportunities to reintegrate into the community, so that the 
schools indeed, the children in the schools whose fathers will 
be coming back, and the challenges that they will have are 
reconnecting with the mothers so that they can receive some set 
of support around this extraordinary infux of challenge that is 
returning to the communities.
    We will know within 3 years, we will know within several 
months where these communities are all around the United 
States, and they ought to be sites where there's an infusion of 
resources to match the infusion of the population that's 
coming.
    So this is a strategic way in which we can approach it; and 
I will also point out this: The change, the Workforce 
Investment Act has meant that there are fewer resources. It is 
much more difficult to get training funds to any of the men 
we're talking about because of the change in the structure.
    Fortunately, the Senate in its Bill 1021 reduces the 
obliteration of--the House proposal is to obliterate the 
distinction between adult programs, youth programs, and 
dislocated worker programs. Give it all to the governors and 
let them figure out what to do with it. And to reward the 
governors if 100 percent of the trainees get jobs.
    What that's going to mean is mass cramming throughout our 
workforce development system. If you've got a guy who looks 
like he can get a job on his own, train him. But if you've got 
a guy who has a criminal justice experience, who is an ex-
offender, forget him; because he's not going to count in terms 
of your placements at the end of the year.
    That will make it extraordinarily difficult for us to use 
the public purse in order to fund some of the things we do. So 
I applaud the Senate's action in 1021 but stay there and do not 
allow these long-standing programs that have focused on hard-
to-serve target populations to disappear because if they do, I 
don't know where the resources to train the people we're 
talking about will come from.
    Mr. Carmona. Ron mentions the million dollar blocks; that's 
common to most cities. You go into any city, you could identify 
the zip codes where these young men are coming back to. And 
they're usually devastated communities.
    One of the reasons why they're devastated is that those 
young men are counted in the census tracks of the prisons 
they're in. So if I'm from Brownsville-Brooklyn and I'm doing 
time at Comstock, I'm counted as being a resident of Comstock 
even though I don't vote, and so of course educational 
resources are deployed--you know, away from the community I'm 
coming back to. And I think that that's also an issue that has 
to be looked at and rectified.
    Senator Klobuchar. Thank you very much.
    Representative Hinchey, if you want to maybe ask a few more 
questions before closing.
    Representative Hinchey. I know we're running out of time, 
but I appreciate being here with you, Senator. Thank you.
    I think that the subject you were just talking about, 
turning over the authority of how to spend that money and 
putting it into a much broader category doesn't make any sense. 
I think it's a big mistake because you might have a good 
governor who's sensitive and who understands these things and 
knows how to spend that money in the best way for the 
community, for the society; but you may not.
    And you're pointing out the issue in New York, where you 
had the loss of education in the prison system, was an example 
of how governors can make big mistakes. Not just mistakes in 
terms of the impact on those people in the prison, but impacts 
through the entire society. And eventually it's going to cost 
you more money.
    I know the origin of that particular initiative; it was a 
right wing ideological idea that if people are convicted of a 
crime, you shouldn't reward them with education while they're 
paying for that crime. Which is absurd because we know that 
people who go into prison are going to come out and you want 
them to be better when they come out than when they went in.
    If you run a prison that's going to guarantee that they're 
not only not better when they come out but they're likely to be 
worse, then you're just creating more and more problems for 
yourself.
    So the lack of education in prisons is absurd, and it 
really, really is something that needs to be changed. And when 
you were saying that, I was thinking about how expensive it is 
for somebody in a prison to call home. The cost of making a 
phone call back to your wife or to your parents is ridiculous; 
and that's in New York. I don't know if it extends all across 
the country or not but that's a situation in New York and it's 
under the process, I believe, of being changed under the new 
administration there. At least it's been mentioned in that way, 
as well as education in the prison system.
    The other thing is that we have a lot of--I think we have a 
lot of dropouts in the employment situation in the country now. 
There are a lot of people who go around talking about the fact 
that the unemployment rate is fairly stable--could be lower 
than it is, but who talk about that, but who forget to mention 
that there are an awful lot of people who have just dropped out 
of the economy completely. And those people are the ones that 
you're talking about.
    So I'm just wondering if you would care to comment on those 
issues.
    Mr. Carmona. Well, the rule of thumb we use is whatever the 
official unemployment rate, you double it for the general 
population and quadruple it for the communities like Harlem, 
East Harlem and the South Side of Chicago. And that rule of 
thumb has generally held true.
    Dr. Mincy. Well, I think it is the case, as I said in my 
testimony, that the general unemployment statistics do 
understate the unemployment problem we have because lots of 
workers become discouraged. And as a result, if they're not 
actively seeking work, they're not counted in the unemployment 
statistics.
    It's really part of the challenge that we face, and I'm 
just concerned and have been concerned for years that, again in 
the absence of this infrastructure that I've been talking 
about, there's really no place for these men to go. There's no 
place for them to get information about the ways in which 
they--you know, we can assist them.
    I think the other issue, however, is that we also have to 
get down to the pure, unadulterated challenge of discrimination 
against Black men. You have to stay there and face this.
    I have a colleague at Princeton University who has done a 
study that shows that a White male who is between 22 and 40 
years old, who has a criminal record, is more likely to be 
offered a job than an applicant who is a Black male, a Latino 
male with the same profile who has not been incarcerated.
    So it's clear that these men face employment 
discrimination; but this geographic concentration of ex-
offenders also means that there is statistical discrimination. 
Employers often do not do background checks, but they're 
assuming that if you're an African-American male who lives in a 
neighbor that's one of these neighborhoods where there's a high 
concentration of crime, that ``there's an issue with you and 
I'm not going to hire you.''
    So clearly, enforcing anti-discrimination laws in the way 
they affect Black men generally and the way they affect those 
who are young and ex-offenders is going to be a critical part 
of fixing this problem.
    I would just finally like to say I actually have employed 
ex-offenders in my home. There's an extraordinary thing that's 
occurred in Harlem in the last 10 years--an extraordinary 
amount of economic development that has occurred in our 
neighborhoods--but there's a moment occurring here wherein the 
transformation of these communities is going to happen or it is 
not.
    You tend to have families who move in--middle income, Black 
gentrifying families, and increasingly White and African 
gentrifying families who move into these communities, and have 
the potential of turning these communities fundamentally 
around.
    But they don't tend to send their kids, they don't tend to 
have children, so they're not bringing their kids into the 
schools and improving the quality of the schools.
    We spend our money--the first thing I spent my money on 
when I moved into the neighborhood was gates and bars and stuff 
in order to secure my home because there are low-income men 
around the community and I have to be concerned about the 
security of my home and my family.
    I also very aggressively and selectively employ ex-
offenders in the community. Why? Because when I'm here, my wife 
is at home by herself, right? And I said, ``You know, baby, 
maybe it doesn't make sense not to give this guy a job washing 
windows. Because what else is he going to do?'' Maybe when I'm 
away he will tell one of his boys, ``No, don't mess with her. 
They're OK.''
    We have to understand that the flooding of these 
communities with men who have been incarcerated places the 
whole community at risk, and places the very job of turning 
these communities around at risk.
    And so, in a way, the challenges that these men face are 
challenges for us all. And if we want to see these communities 
fixed--the quality of their communities turned around and the 
like, we're going to deal with the issues that we're facing 
today; and again, I just want to underscore, I really thank 
you, Members of this Committee, for going to this issue. And I 
hope, again, we'll have an ongoing dialogue as we work this 
out, unfortunately over the years.
    Senator Klobuchar. Senator Schumer.
    Chairman Schumer. Thank you. First I want to thank my 
friend, colleague, great Senator already, Senator Klobuchar for 
chairing in my absence. I apologize for not being here; and if 
you have to get on, I'll take the chair----
    Senator Klobuchar. I won't----
    Chairman Schumer. I'm happy to have you there.
    Senator Klobuchar. You think I'm going to give up this 
gavel?
    [Laughter.]
    Chairman Schumer. I just wanted to ask one question of Mr. 
Carmona, which I know there's been great questioning, and the 
interest here is high in terms of people who really care about 
this issue.
    When I went to visit STRIVE, and I'd love to get our whole 
Committee to visit, I told Senator Brownback, Congressman 
Hinchey maybe they'd like to come and visit.
    Here's what's so interesting: It's a moving thing to see, 
and what you have is the teachers--who are incredible people--
they don't get paid that much; they're really dedicated--in a 
classroom. And they're basically trying to change attitudes.
    What STRIVE does is not go straight to the skills; and in 
fact they, I think--and Mr. Carmona, you'll correct me if I 
have this slightly out of kilter a little bit--but the goal is 
to first just accept the job, entry level; you might make 9- or 
10- or 11,000 dollars a year, but they talk about attitude.
    And the teacher in one of the classrooms I visited was 
playing ``the boss.'' And he was telling the worker--and a lot 
of the people in the room were ex-offenders and young African-
American, Hispanic men. ``When the boss says something, you've 
got to listen. He's got power over you.'' It's a whole 
attitudinal change.
    And if you don't get it--and what was so interesting is the 
students--you call them some other word, I forgot.
    Mr. Carmona. Clients.
    Chairman Schumer. Clients. At STRIVE, some of them really 
argue back. They didn't get it. They weren't role-playing. And 
they would get fired and they'd be out of a job and back where 
they started from.
    The early training is attitudinal, what it's like. And when 
the boss disses you, he's not dissing you; he's doing his job, 
make you work harder or do this or do that. And the goal of 
STRIVE--and again, correct me, I may have the exact numbers 
wrong--is entry level job for the first period of time but then 
skills, once you get that.
    Because if you just emphasize the skills--that's why so 
many of these programs don't work--but you haven't changed 
attitude, and you haven't told these young men who have never 
been in this kind of situation--they've been in a street 
situation--that ``This is a different world, and you can do it. 
And what's hurting you is not your intelligence and not your 
physical skills, but you've got to get with the way of it. And 
it's not the way of the street. And doing what might be great 
on the street is going to kill you in this job.''
    And that's what they focus on early on. And they have 
classrooms that do it but they're real life type things. 
There's real tension crackling in the room between the teachers 
and the clients.
    You don't call them teachers, I guess. Trainers and 
clients.
    And it works because as I'm sure you've said, as I know you 
said in your testimony, they have a very high retention rate, 
and not only a very high retention rate, but the people 
actually advance. And instead of making $9,000 or $12,000 a 
year, they're making 15. And man, that's great.
    So could you talk a little bit about the difference between 
the skill training, which STRIVE--different than most groups--
tries to do later and the attitudinal training--you probably 
have a better word for it than I'm using.
    Mr. Carmona. And I'm also going to get into this thing that 
we call code switching. The kind of persona that African-
American and Latino men develop, either on the street or in 
prison, is appropriate for those communities, right? Because 
you don't want to look like lunch money on the street; and in 
prison it helps you do your time so you have this affect, if 
you may.
    What we get across to them is that that affect that you 
have has validity in a certain environment; it is not valid for 
the world of work.
    The other thing we try to get across to people is that the 
world of work is not a democracy. Rule No. 1, the boss is 
always right; rule No. 2, if the boss is wrong, refer to rule 
No. 1. And that respect isn't something that you get by just 
showing up; it's something that you have to earn over time.
    Probably half--no, maybe more than half of the individuals 
that are trainers at the STRIVE organizations were, in fact, 
clients of the agency or have lived the client experience at 
some point in their lives. And I think what that does is give a 
living, breathing, role modeling function that clients can see, 
because people have to be able to look at somebody and say, you 
know, ``I can do that also.''
    I know when I address the clients I have--I'll tell them 
that I have a degree from an Ivy League university, from 
Columbia University, which means nothing to them nor should it. 
What they need to know is what have I gone through in my life 
that says I can inform them.
    The other thing about this clientele that's very 
interesting, and I hope this doesn't sound sexist, but I liken 
it to women's intuition. Poor people develop a sixth sense. 
They've heard words before so words are not what they hang 
onto.
    What they hang onto are feelings and sentiments. And if 
they feel that the person in front of them, in this case the 
trainer, has their best interest at heart, they will follow 
them. And in fact, even suffer their mistakes. This notion of 
soft skills--it's just now popular--has been undervalued for 
years.
    Here in Congress, and all you guys and gals are obviously 
very well-educated, very talented, but think of how much you 
get done by being able to--this sounds silly--to schmooze, to 
be able to get your colleagues to like you, to buy into what it 
is that you're presenting to them.
    That is the same kind of dynamic that we try to impart to 
our individuals; and we'll give them examples of that.
    The other thing that we emphasize is this notion of 
personal choice. Every convict always has a brother or sister 
that's out in the street doing swell. I know for me, I was in 
jail and my brother was an ordained minister, and I used to 
blame everybody until it was pointed out to me, that we were 
both raised by the same parent with the same values. Why was I 
in jail and he an ordained minister?
    It really enabled me to focus on the personal choices I 
made or didn't make in my life; and that's the other thing we 
emphasize. And we do it in manners that they can flash back to 
rather quickly; the things that happen in their own family 
structures. It can be kind of confrontational, quite candidly.
    With the younger people we have to be much more nurturing 
in that approach, but that has also proved valuable. And as I 
said earlier, Senator Schumer when you were here, if we could 
also do a STRIVE in schools, I think would be eminently helpful 
for this group of young Black men that we're trying to work 
with.
    And if I don't get a chance, I wanted to thank Senator 
Schumer and Senator Klobuchar for this opportunity; it was 
really great.
    Chairman Schumer. Dr. Mincy, please.
    Dr. Mincy. Sometimes when I listen to Rob talk, I want to 
bottle him, you know? The phrase is, sell him.
    But you remember Project Match?
    Chairman Schumer. Uh-huh.
    Dr. Mincy. We bottled it. Every workforce development 
organization in this country that works with low-skilled women 
has the knowledge about gradually entering them into the labor 
force. First working with them so that they are child care 
providers at their children's school, so that they're getting 
the habit of getting out of bed in the morning; and they 
gradually develop a set of habits over time that enable them to 
become mainstream workers in the work force.
    We've learned that over 25 years, we've bottled it, we've 
done research, we disseminated research so that people who work 
with low-skilled women have developed a technology in order to 
figure that out. We have not bottled this.
    Chairman Schumer. And that was my next question. Mr. 
Carmona in a sense has bottled it; STRIVE has bottled it. How 
many places, how many sites?
    Mr. Carmona. There are about 30 sites in 17 cities, because 
some cities are multi-site.
    Chairman Schumer. So it's bottle-able, so to speak.
    Mr. Carmona. That's right.
    Chairman Schumer. How do you do it? What do we have to 
learn how to do? How can we, because when we're sitting up 
here, what I'd like to do is put enough money in, so for as 
many bottles as you can make, we'll pay to fill them, you know.
    So could you explain, both of you, a little bit elaborate 
on how we replicate this, how we get it going? Too often I've 
seen programs, I see them, I love them. And then you try to 
extend it to someone else, and it's all related to the person 
who's in charge.
    And, you know, Mr. Carmona's a powerful man, and the people 
who I met at the STRIVE in East Harlem are powerful. But it 
works every--I asked them for the statistics; it works all 
over.
    How do we do it?
    Mr. Carmona. Well, being in New York, you would probably 
appreciate this, Senator, we have to be very sensitive to other 
cities. We will not go to any city unless we're invited. 
Because you don't need some New York wise guy coming in to tell 
you what to do.
    So what we have found is, that we have to be invited into a 
city, and then we try to identify what we call the champion. 
And that individual, could be a nonprofit head, or could be 
somebody from the private sector that has a passion and 
dedication to this kind of work; and have that individual put 
together key stakeholders.
    The other thing that we were able to do, and this was also 
with support of Ron when he was at Ford--this is when Ron had 
money; he doesn't have any money anymore--we created this 
vehicle we call the STRIVE Academy where, when a city or a town 
expresses an interest in a STRIVE, we actually invite them to 
New York, take them upstate, and put professionals through a 5-
day deep immersion in the client experience.
    For a number of reasons. One, to make sure that we're 
philosophically in accord; but I think more importantly, to get 
professionals to understand that they are no different from the 
clients; that the only thing different between the client and 
them is that at that point they have paychecks and they have 
jobs. And that they'd like to think that they've matured and we 
managed their personal baggage in a much more positive manner.
    But we immerse them in that, and then enable them to go 
back to their respective locales, mull over, noodle on the 
experience; and then we'll come to that locale and actually 
give them technical assistance on the ground to get the STRIVE 
program off.
    Chairman Schumer. Do some of the trainers initially--let's 
say Cincinnati invites you in--just pick a city. And do any of 
the initial trainers come from an existing STRIVE office, and 
they help train the other trainers and work with them there, or 
he can set it up from scratch? How does that all work.
    Mr. Carmona. There are two models. Half the STRIVE sites 
are separately incorporated new STRIVE sites that we've put up. 
The other half are components of existing not-for-profit 
organizations.
    In San Diego, it was a program called Second Chance that 
worked exclusively providing housing for homeless individuals. 
Then they finally realized homeless individuals need jobs, and 
they added the STRIVE component.
    Our trainers will actually go and live in that city for 2 
weeks, a month, and hand-hold that first cycle. For example, we 
started in Tel Aviv in January of last year, and my colleague 
Frank Horton--who was the architect of training, quite frankly, 
the founding staff person that developed the training as we 
know it--went to live in Israel for a month, and actually was 
on the ground with them.
    First, their staff will come to STRIVE and stay for a month 
and do what we call shadowing. Then they'll go back to their 
locale and Frank or one of our trainers will go and stay on the 
ground with them for a month, and hand hold them through the 
first cycle.
    But then there are ongoing interactions. We have two 
functions a year where we convene what we would call a summit, 
where we invite all board executive directors and board members 
to one site, so we can get together for a few days and come up 
with strategy about the direction we're going in; and then we 
also have, for line staff, a gathering every year where we 
disseminate best practices. But what we found is that 
interacting with your colleagues from Israel and you're from 
San Francisco is very powerful, because you feel like you're 
part of a collective. And there's power in that, and it 
energizes our individuals.
    Chairman Schumer. One final question, because I don't want 
to keep everybody.
    Did you want to say something, Dr. Mincy? Then I'll ask my 
question.
    Dr. Mincy. But this replication is all funded off of 
private dollars.
    So where's the policy role? The Department of Labor 
replicated the Youth Build program, OK. The Department of Labor 
replicated the Quantum Opportunities Project where we took the 
teenage children of welfare recipients, we were concerned about 
their graduation; we found a diamond-like model in 
Philadelphia--``Oh, that's a good idea.'' The Department of 
Labor then funded the replication in several other places 
around the country.
    And it worked. So again, what has been curious is that in 
our euphoria about the booming economy and welfare reform, we 
have neglected this population; and as a consequence, the 
Department of Labor has cut these opportunity grant programs 
but not replicated diamonds such as this that work with this 
population.
    Chairman Schumer. Just one final question. Have you tried 
to set up certain new locations that have failed, and why? What 
is the lesson you learned from that one?
    Mr. Carmona. We tried it in Denver with a group of people 
that made up the board that were more interested in the glory, 
rather the actual substance, and on the ground work.
    And in Battle Creek, Michigan we had a program initially 
funded by the Kellogg Foundation, and the city government 
didn't pick up the tab after the grant terminated--so it 
folded.
    There are actually case studies on where the organization 
was successful and where it's failed. In fact, I don't know if 
I mentioned this, STRIVE is a case study at a number of 
schools; Harvard, Duke, Cornell, and it is actually a case 
study for their graduate degree programs in business.
    Dr. Mincy. I really appreciate your indulgence.
    Ten years ago when we met, Rob, one of the things that most 
work force development organizations did, they would never 
serve a female client without asking if she had a child care 
need. Never, as part of the assessment. Because going to work 
is not real for her unless her child is taken care of.
    Most workforce development organizations that work with men 
do not make as part of the assessment: Do you have a child 
support order? If I get you a job making $22,000 a year, how 
much of it are you going to keep? But as a consequence of the 
capacity building that they did over the last 10 years--I was 
there yesterday or day before yesterday doing a site visit for 
the New York State evaluation.
    They have now internalized, men are fathers, they have 
child support--it is fundamentally inserted into their 
services, and as a consequence they have expertise to help men 
make money and keep it, and pay their child support and the 
like.
    But this is done, this can't be done unless there's a 
resource base that enables these organizations to build 
capacity and do what they're doing.
    Senator Klobuchar. Well, thank you so much. This has just 
been a tremendous hearing, and I have to tell you that the last 
few weeks, I've seen some sobering things, and you've given me 
hope. I went to New Orleans. I had seen those images on TV and 
always thought about that as sort of a mirror in the reflection 
of the leadership of our country. And then I went down there. 
There's been some work done, and we can't deny that. But we 
still have incredible problems in poverty. Things haven't been 
fixed the way they were supposed to.
    I was at a hearing this last week on early childhood and 
child nutrition, and one of the people from one of the school 
districts, talked about how their school district gave free 
breakfasts to poor kids the day of the standardized test--but 
not any other day. Because they knew that it would improve 
their scores for that test, but they didn't do that for them 
other days.
    I see these statistics, and they're incredibly sobering. 
But now let me talk about the hope that I've heard today from 
both of you. I have the seat that was held by Hubert Humphrey, 
a great civil rights leader, and I see this as the civil rights 
issue of our time, economics. I don't say this to dispute the 
fact as you mentioned, Dr. Mincy, that there's still 
discrimination and that race is a big elephant in the room as 
we look at this issue.
    But I see different solutions than we had back in the 
1960s, as we discussed. And I think so much of this has to be 
acknowledging this issue, not running from it, talking about 
how we're out of time in our country when we have to compete 
with China and India and these other countries. We have all 
these potential workers but we need to give them a ladder 
through education, and we haven't been doing that.
    I think that's one argument that's going to work. With my 
suburban constituents in Minnesota who understand that we need 
to do address this.
    I think we also have programs like STRIVE and the Twin 
Cities RISE that I mentioned that work. I feel very strongly, 
as Senator Schumer said, that we're going to have to use 
numbers with these programs as we look at how to replicate them 
across the country so that we can show the American people 
``this is what works''.
    We also need to make some tough decisions about what 
doesn't work, so that we can move ahead in this area.
    I see hope in my own daughter's school, when she was in 
school back in Minneapolis. She was at a school until fifth 
grade that was 50 percent free and reduced lunch, 70 percent 
minority. They had the third highest test scores in the State 
of Minnesota because they were together, it was a neighborhood 
school, and it worked. And I saw how these kids did.
    So I see hope out there, and I just want to thank you. You 
mentioned, Dr. Mincy, how you don't want to be here 20 years 
from now with gray hair. Well, I hope you are here 20 years 
from now, and I hope we're going to be able to discuss some of 
these successes.
    When you have these two other great people representing our 
Nation up here, you captured the imagination from Senator 
Brownback; he already e-mailed us that he wants to start 
working on this. So I urge you not to give up, as difficult as 
these issues are; that there are people that care, and we need 
to move forward.
    Thank you very much.
    Oh, the gavel. This is our moment.
    [Gavel down.]
    [Whereupon, at 11:26 a.m., March 8, 2007, the hearing 
adjourned.]
                       Submissions for the Record

=======================================================================

[GRAPHIC] [TIFF OMITTED] 35863.001

       Prepared Statement of Senator Charles E. Schumer, Chairman
    I would like to welcome my fellow Members, our witnesses and guests 
here today for our first Joint Economic Committee hearing on employment 
in the 110th Congress. The Joint Economic Committee, which was created 
by the Employment Act of 1946, has a tradition of holding hearings on 
the employment situation. Going forward, we hope to use the timing of 
the monthly releases of employment data as an opportunity to 
investigate problematic trends lurking behind the headline numbers that 
warrant national action. Today, our focus will be on the growing crisis 
of joblessness for young African American men.
    The crisis is profound, persistent and perplexing. Both across the 
country and particularly in my home state of New York, far too many 
black men are facing difficulty finding and keeping work. The numbers 
are staggering and getting worse, particularly for young black men.
    Consider these statistics:

    In 1999, 65 percent of black male high school dropouts in their 
twenties were jobless--in other words not looking or unable to find 
work--and by 2004, the share had grown to 72 percent jobless. 72 
percent jobless! This compares to 29 percent of white and 19 percent of 
Hispanic dropouts.
    In the inner cities, more than half of all black men do not finish 
high school. Even when you consider high school graduates, half of 
black men in their twenties were jobless in 2004.
    To make matters worse, incarceration of young black men is at 
historic highs. A black man with only a high school diploma has a 30 
percent chance of having served time in prison by the time he turns 30. 
Without a high school diploma, his likelihood of having been 
incarcerated jumps to 60 percent. In fact, a black male in his late 
twenties without a high school diploma is more likely to be in jail 
than to be working. These numbers take your breath away.

    These numbers should cause national alarm and demand a national 
solution.
    One reason this crisis is perplexing is because it is playing out 
against a backdrop of relative economic success and unprecedented 
historical advances for many sectors of our nation's African American 
population.
    Obviously we know the stories of highly successful black men and 
women--Richard Parsons, the head of Time Warner, Stan O'Neal, the head 
of Merrill Lynch, Oprah Winfrey, Senator Barack Obama, Condi Rice and 
countless others. And more importantly there are burgeoning black 
middle class communities throughout the country and lower income black 
women who have made impressive gains in terms of work force 
participation in just the last few years.
    So, we can lull ourselves into thinking things are all right. But 
we have to dig down into the numbers a little more to see how mistaken 
that belief is when it comes to black males with less than a college 
education. And that is what we hope this hearing will accomplish 
today--to give us a better handle on this problem, and help us craft 
the right policy solutions to address it.
    There are many circumstances that led us to this point, and many of 
them are familiar culprits. Failing schools, dysfunctional families, 
high incarceration rates, overt and subtle racism, and the decimation 
of manufacturing jobs that typically afforded opportunities to black 
men in the labor market.
    These political, cultural, economic and personal elements are high 
hurdles that are tripping up far too many young black men. And while 
this is a sensitive subject, there is also a subculture of the street 
that provides easy money and allows some to eschew personal 
responsibility. But we can't sit passively by and let that subculture 
claim another generation of young men.
    A long-time friend and community leader in Brooklyn, the Reverend 
Johnny Ray Youngblood said it best: ``Government has a moral 
responsibility to compete against, and win against, subcultures that 
are immoral, illegal and really inhuman.''
    Reverend Youngblood is 100 percent right. But this much is certain: 
on the Federal level, there has been no comprehensive public policy 
response to this situation. We have left the problems of black men 
largely to the market, which is ignoring if not exacerbating the 
problem.
    My goal today is twofold: first, we must shine a bright spotlight 
on a problem that--to my thinking--has received scant attention, 
inadequate resources, intermittent focus and poor coordination at the 
Federal level.
    Second, I want to explore legislation, policy and programs that 
will have a real impact in addressing this crisis. This committee's 
challenge today, and in the weeks and months ahead, will be to put 
forward a series of policy recommendations aimed at addressing the 
crisis of young black male unemployment. We will start by looking today 
at promising reform experiments at the state level--such as in my home 
state of New York--and see what we can and should emulate on the 
Federal level.
    At the state level, there has been some good news. After much trial 
and error, we now have several successful job training and placement 
models that do work. In a few moments, we'll hear from Robert Carmona 
of STRIVE whose job-training program has been replicated with great 
success throughout the United States and around the world. We'll also 
hear from Dr. Ronald Mincy who has helped design an Earned Income Tax 
Credit initiative for non-custodial parents in New York State that will 
help draw thousands of new workers into the labor force in the coming 
years. Our task will be turning these local-grown programs, models and 
ideas, into national policies that can help us meet this challenge 
head-on.
    With that, I will turn to the Vice Chair, Ms. Maloney, to give her 
opening statement, and give the other members a chance to provide 
statements before we proceed to the introduction of our panelists.
                               __________
  Prepared Statement of Representative Carolyn B. Maloney, Vice Chair
    Thank you, Chairman Schumer. I am pleased to welcome our witnesses, 
Dr. Mincy and Mr. Carmona, to talk about the issue of African-American 
male unemployment and what we can do to successfully reconnect this 
group of men to work.
    As Dr. Mincy points out, this is not a new problem, but if labor 
force trends among young black men continue to deteriorate, we run the 
unacceptable risk of losing a generation of them to the streets or 
prison.
    More than four decades ago, Martin Luther King, Jr. spoke of the 
experience of many blacks as languishing ``in the corners of American 
society.'' While progress has been made since the March on Washington, 
unfortunately Dr. King's words still ring true today for too many young 
black men. Now, as then, it would be unwise to ignore the urgency of 
the moment.
    An array of forces, such as poverty, lower educational attainment, 
discrimination, high incarceration rates, and the decline of 
manufacturing employment have all contributed to creating significant 
employment barriers for African-American men.
    The problem is vividly illustrated when you consider Dr. Mincy's 
point that even at the height of the economic expansion in 1999, only 
35 percent of black male high school dropouts were working and that 
figure fell to just 28 percent by 2004. The comparable figures for 
white men were 81 percent in 1999 and 71 percent in 2004. It's striking 
that an overwhelming majority of white male high school dropouts are 
working, even in the wake of a recession, but an overwhelming majority 
of black male high school dropouts are not working, even in a strong 
economy.
    When robust economic growth and a tight labor market are not enough 
to move people into the workforce, we have to look at what policies 
might help build a bridge to work for these men. Dr. Mincy has a new 
twist on the federal Earned Income Tax Credit (EITC) that has worked 
well to help work pay for young black women. By following the lead of 
my home state of New York, increasing the federal EITC for non-
custodial parents who are meeting their child support obligations would 
provide a strong incentive for men to enter the workforce and would 
strengthen families by encouraging men to stay current on their child 
support payments.
    Mr. Carmona has a compelling personal story of success that makes 
his advice on this issue particularly relevant. The STRIVE model 
demonstrates the long-term commitment that we must make to personal 
development, job training, and career counseling in order to break the 
cycle of detachment from mainstream society for many young black men.
    The ideas our witnesses put forth should be seriously considered, 
but the issue of reconnecting these youths to school must also be 
addressed. Our public schools need to equip all of our children with 
the education and skills needed to succeed in an increasingly 
technological and global economy. I hope we will be able to explore 
this issue in-depth at a future hearing. Mr. Chairman, thank you for 
holding this important hearing. I look forward to the testimony of our 
witnesses and their thoughts on policies that can help create a 
brighter future for young African-American men.
                               __________
                               [GRAPHIC] [TIFF OMITTED] 35863.002
                               
              Prepared Statement of Senator Sam Brownback
    Chairman Schumer, let me commend you for dedicating Joint Economic 
Committee time to examine the need to address the disproportionately 
bad labor market and social outcomes encountered by African Americans, 
and particularly by young African-American males.
    While labor market and social problems afflicting African Americans 
have been known for decades, it is important to continue to focus 
attention and efforts on resolving those problems.
    Recent research, including some by Professor Mincy, one of our 
witnesses today, highlights a large pool of African-American males who 
are relatively poorly educated and seem in some ways to be more and 
more disconnected from mainstream society. It is important to determine 
ways to change some of the forces leading to such a disconnection.
    For young African Americans, especially in inner cities, finishing 
high school is often the exception, prison time is often the routine, 
and incarceration rates have climbed even as overall urban crime rates 
have declined. Young African-American males have fared poorly in the 
Nation's labor markets--even during the arguably over-heated expansion 
of the late 1990s.
    I am a firm believer in the positive power of the family. Too 
often, young African-Americans obtain their start in life in fatherless 
families. They often obtain life skills from distortions in the media 
or from the streets and their role models often seem to come more from 
the media or young friends than from parents and family.
    To help counter these and other difficulties, some programs exist 
that place as much emphasis on teaching life skills such as parenting, 
conflict resolution, and character building as they do on the more 
traditional approaches of teaching job skills. To his credit, Mr. 
Carmona has channeled his energies into a comprehensive program called 
STRIVE in response to the difficulties encountered by many young 
African-American men and women. His efforts deserve recognition.
    Education and incarceration are also important components of the 
adverse labor market and social outcomes that many young African-
Americans experience. By 2004, around 50 percent of African-American 
males in their twenties who lacked a college education were jobless, as 
were 72 percent of high school dropouts. In the inner cities, more than 
half of all African-American males do not finish high school. 
Incarceration rates for young African-American males climbed in the 
1990s and have also risen in the past few years. By their mid-thirties, 
around 60 percent of African-American males who dropped out of school 
have spent time in prison.
    Mr. Chairman, I want to thank you again for calling today's hearing 
on this important economic and cultural issue. I look forward to our 
witnesses' testimony and our question and answer time. I am 
particularly interested in our witnesses' views on what we can do to 
strengthen the family structure in the African-American community. It 
is clear to me that we are unlikely to have any meaningful impact on 
this problem if we fail to do what we can to restore the fabric of the 
family and social responsibility in this nation--particularly in our 
inner cities.
          Prepared Statement of Senator Hillary Rodham Clinton
    I want to thank the Chairman of the Joint Economic Committee and my 
distinguished colleague from New York, Senator Schumer, for convening 
today's hearing on the serious problem of African American male 
unemployment in our country. I want to also commend the members of the 
Joint Economic Committee for holding this hearing so that we may begin 
a serious discussion about federal policy solutions to this persistent 
yet under-reported problem. The most recent figures that put the 
unemployment rate for African-American men over 20 at 7.5 percent, more 
than double the rate of white males over 20, only underscores the 
timeliness and importance of today's search for solutions.
    Indeed the challenges facing African American males in the 
workforce are daunting. The hollowing out of the our Nation's 
manufacturing sector, the bedrock of our economy that enabled the 
creation of the middle class as we know it, presents fewer and fewer 
opportunities for African Americans to get into the jobs that can 
provide a level of income that enables home ownership, saving for their 
children's education and their retirement. Outsourcing challenges from 
other rapidly developing nations creates even more competition not only 
for blue collar jobs, but increasingly for skilled, white collar jobs 
as well. The tax and economic policies of the last 6 years that have 
been focused on rewarding the wealthy at the expense of our fiscal 
stability, the needed investments in education, job training and small 
business development, have failed to produce the rising tide that lifts 
all boats. Instead, while worker productivity is up dramatically, wages 
and income have remained stagnant and the gulf between rich and poor, 
between have and have not has only widened. The fact that our upside 
down economic priorities have resulted in the United States spending 
more each year simply paying the interest on our exploding debt, than 
on education, job training, and poverty relief combined shows that we 
need to put forward an agenda that will put workers and job 
opportunities first.
    Indeed, government can, and should, play an active role in ushering 
in prosperity for all, and I hope that today's hearing will begin to 
address the underlying causes for such a wide gap of employment and 
employment opportunities among African American males as well as 
sensible and innovative solutions to curb this trend. The proposals 
that will be discussed during this hearing such as the STRIVE approach, 
which combines innovative job training while opening up new employment 
opportunities hold great promise, and I am heartened that the Committee 
will address them today.
    There is no reason why in 2007, in these United States of America 
that our government cannot take steps to ensure an equality of 
opportunity for all Americans and address the troubling unemployment 
rate of African American males. I believe that over the last 6 years, 
we've only lacked the leadership, commitment and vision to take action.
    Senator Schumer today has shown his understanding of these 
challenges and has demonstrated his leadership and willingness to take 
these issues head on in holding this hearing. I welcome the opportunity 
to work with him and all of my colleagues in Congress in moving an 
agenda forward.
    Today, millions of Americans, and not just African Americans, are 
asking the question: ``Isn't this America?'' When it comes to our 
broken health care system, crumbling schools, lack of affordable 
housing, and so many other challenges this is a question we not only 
should ask--but answer with smart solutions that uplift all. We must 
speak out and work hard so more Americans have the opportunity to 
realize their potential and follow their dreams.
                               __________
            Prepared Statement of Senator Edward M. Kennedy
    Joblessness among young African American men is a persistent and 
under-reported problem that affects all Americans and threatens the 
strength and stability of our economy and our society.
    The statistics are appalling:

     The unemployment rate for young African American men is over 
twice the rate for other groups of men.
     The average number of unemployed African American men has risen 
by over 150,000 since 2000--a 25 percent increase.
     24 percent--nearly a quarter--of unemployed African American men 
suffer from long-term unemployment, which means that they have been 
unemployed for more than 26 weeks.

    The promise of the American Dream is that everyone will have the 
opportunity to work hard and build a better life. But that dream is far 
from reality for these young men. They want to work, provide for their 
families, and contribute to our economy, but the opportunities aren't 
there.
    The crisis of high unemployment among young African-American males 
is a crisis for America. These men are fathers, husbands, sons, and 
role models. Over 30 percent of unemployed African American men are 
married. Yet, one out of every three is not in the workforce.
    Their ongoing struggle is a shameful reminder of how far we still 
have to go to eradicate poverty and end racial inequality in America. 
Our country is weaker when we do not allow each generation to meet its 
potential. We are at risk of leaving an entire segment of society 
behind.
    We must dismantle the barriers that are blocking opportunities for 
young African American men. We have to create the good jobs with good 
wages and good benefits that enable workers to build better lives for 
themselves and their families. We must improve opportunities for 
training, so that unemployed workers are qualified to hold the jobs of 
the future and respond to the challenges of the new economy. We must 
expand opportunities to higher education, so that everyone has the 
opportunity to succeed.
    Above all, we must attack the continuing problem of racial 
discrimination. We can't keep pretending that discrimination is a 
problem of the past. We have to find new ways to fight the persistent, 
subtle, and sometimes not-so-subtle, forms of discrimination that hold 
back young African American men.
    They deserve the opportunity to provide for their families, 
contribute to our economy, and achieve the American Dream. I commend 
the Joint Economic Committee for holding a hearing to call attention to 
this important issue, and I look forward to working with my colleagues 
in Congress to increase the opportunities available to all young 
African-American men in our nation.
                               __________
               Prepared Statement of Senator Barack Obama
    I would like to commend Chairman Schumer and Members of the 
Committee for holding this hearing on the critical issue of joblessness 
among African American men. The data reveal that more than half of all 
African-American boys in some cities do not finish high school, and 
half of all black men in their twenties are jobless. The unemployment 
rate for young African American men is over twice the rate for other 
groups of men. One study a few years ago found more black men in prison 
than enrolled in college. This hearing is important to keep the 
spotlight on the issue, to continue the dialogue, and to fashion sound 
policy solutions to a problem that reflects the broader issue of 
poverty and racial inequality in America.
    African American men and women have made significant strides in 
breaking down barriers that prevented full participating in the U.S. 
economy. African Americans have risen to some of the highest levels of 
corporate America, higher education, sports, medicine, and government 
service. Despite these gains, however, there remains a growing 
disparity, particularly concerning African-American men, with respect 
to educational achievement and labor force participation.
    The crisis of the black male is our crisis whether we are black or 
white, male or female. We need a new ethic of compassion and a new 
commitment to break the cycle of educational failure, unemployment, 
absentee fatherhood, incarceration, and recidivism. The failure of 
government policies to recognize black men as husbands, fathers, sons 
and role models cannot be tolerated any longer. We need new policies 
that deal with the breakdown of families, close the educational 
achievement gap, promote high-wage employment, and reduce racial 
discrimination. We need to reauthorize effective early education and 
training programs and enact new legislation like the Second Chance Act 
and Responsible Fatherhood legislation that seek to close the enduring 
gaps.
    Of course we need to expect and demand good choices and responsible 
behavior. We need to expect black fathers, for example, to be 
responsible fathers and we need to call them to account when they're 
not. All of us have a responsibility to instill in children the values 
of self-determination and self-sacrifice, dignity and discipline, 
honesty, accountability, and hard work. But let's support and reward 
good choices. Let's not degrade ourselves with divisive rhetoric or 
cynical neglect of vulnerable Americans. Let's not fail to give people 
the first chance they deserve, the support they may need, and the 
second chance that we all sometimes require.
    I applaud the chairman for having this hearing, which I hope will 
be the first of many to examine the various issues, in addition to 
joblessness, that combine to limit the life choices and life chances of 
young African Americans. I want to work with the Chairman to assess 
additional employment training options including transitional jobs, 
public-private training partnerships, and career pathways. I want to 
work with my colleagues here as they evaluate African-American 
healthcare access and pathways to higher education as well as reentry 
programs that help African-American men, and all men and women, 
transition from periods of incarceration to the ability to make 
meaningful contributions to their families and communities. I want to 
work with you to consider tax law changes and programs that help young 
fathers to be effective parents, role models and members of their 
neighborhoods.
    This is a very important topic that we all need to worry about as 
we seek to make the American dream, and the American ideals of 
opportunity and equality, real. This topic needs to be a major part of 
our national conversation.
    Finally, let me acknowledge one of the witnesses here today, Prof. 
Ron Mincy, who has been extremely helpful to my office in developing 
legislation related to responsible fatherhood and healthy families. 
Ron's contributions and commitment to this area are extraordinary and 
we are lucky to have him with us today.
    Thank you.
                               __________
Prepared Statement of Dr. Ronald B. Mincy, Maurice V. Russell Professor 
   of Social Policy and Social Work Practice, School of Social Work, 
                          Columbia University
    Almost a year ago, The New York Times reported the results of three 
research efforts which highlighted the long-term detachment of young, 
less-educated black men from mainstream society. The findings from my 
research project, which are reported in Black Males Left Behind (2006), 
show that during two of the longest periods of sustained economic 
growth in our nation's history (between 1979 and 2000), the employment 
and labor force participation rates of young less-educated black men 
consistently fell and this particular group of men was even more likely 
to be incarcerated. In contrast, young, less-educated black women from 
the same families, communities, and schools made substantial economic, 
educational, and social progress. Among black females, welfare 
dependency and teenage pregnancy rates fell while employment, high 
school graduation, and college enrollment rates rose. For young, less-
educated white and Hispanic men, employment and labor force 
participation rates also registered long-term declines in contrast to 
rates for comparable women, although the rates are not as dramatic as 
for the black population. In sounding a wake-up call, the article 
substantiated serious racial and gender inequalities for the long-term.
    More recent data confirm the predictions from this study, namely 
that the labor force trends among young less-educated black men would 
continue to deteriorate over the decade, as the economy softened from 
the peak achieved in 1999. However, the declines in labor force 
participation and the increases in incarceration mean that in slack 
labor markets, official labor force statistics mask the real employment 
problems many young black men experience.
    This occurs for at least two reasons. First, the labor force 
consists of individuals who are working or looking for work. However, 
in slack labor markets many who are looking for work simply stopped 
trying. These discouraged workers withdraw from the labor force, but 
this hidden unemployment is invisible in official labor force 
statistics. Second, labor force statistics exclude institutional 
populations, because these individuals are not available for work. 
Historically, voluntary decisions made by individuals or policymakers 
have played little role in the size of institutional populations. In 
recent decades, however, crime and fears about crime have led to 
criminal justice policies that have an especially adverse effect on 
young black men. Although these men are not available for work in the 
civilian labor force, they could be if criminal justice policies were 
relaxed. Therefore, official labor force statistics understate the 
number of young men who could be available for work. In 1975, 5.7 
percent of black men in this age group were incarcerated; by 2004 that 
proportion rose to 13.5 percent. Thirty-five percent of those who were 
high school dropouts incarcerated in 2004.\1\
---------------------------------------------------------------------------
    \1\ I am grateful to my colleague Bruce Western at Princeton 
University who provided the raw data on which these calculations are 
made. I remain responsible for any errors.
---------------------------------------------------------------------------
    In view of these problems, researchers are paying increased 
attention to employment rates and employment-to-population ratios, 
adjusted for incarceration, to get a more accurate picture of the 
status of black men in the labor market. The remainder of my testimony 
follows this practice (Western and Beckett 2000).
    In 1999, 70 percent of black men between 22 and 30 years old--in 
the non-institutional, civilian population, who had not attended 
college--were employed. By 2004, only 63 percent were still working. 
Declines over the same period were from 88 to 82 percent and 88 to 85 
percent for comparable white and Hispanic men, respectively. Adjusting 
labor force statistics for men in prisons or jails yields an estimate 
of the proportion employed in the civilian population. This adjustment 
reveals a more discouraging picture. Only 56 percent of the young black 
males in the civilian population, who had not attended college, were 
employed in 1999. By 2004, the proportion had fallen to half (50 
percent). White men were far less likely to be incarcerated than black 
and Hispanic men; so the incarceration adjustment makes little 
difference. In 1999, 85 percent of young white men in the civilian 
population, who had not attended college, were employed. By 2004, this 
proportion had fallen to 79 percent. Eighty-three percent of young 
Hispanic men in the civilian population were employed in 1999 and by 
2004 the proportion employed had fallen only 2 percentage points to 81 
percent.
    Because fewer than half (47 percent) of young black men graduate 
from high school, a comprehensive picture of their labor market status 
requires a focus on the high school dropout population. Doing so shows 
that just over half (52 percent) of young black men in the non-
institutional population, who dropped out of high school, were employed 
at the 1999 peak; by 2004 this proportion had fallen to 43 percent. 
Comparable figures for white men were 76 percent in 1999 and 66 percent 
in 2004. Dropping out of high school did not constitute an employment 
barrier for Hispanic men, 86 percent of whom were employed in 1999 and 
85 percent in 2004.
    Finally, high school dropouts were overrepresented among those in 
our nation's prisons and jails; therefore the full picture of the 
employment status of black men requires adjusting employment rates of 
high school dropouts for incarceration as well. After doing so, the 
picture becomes alarming. At the peak of 1999, only 35 percent of black 
male high school dropouts in the civilian population were employed and 
by 2004 that proportion had fallen to just 28 percent! Comparable 
figures for white men were 81 percent in 1999 and 71 percent in 2004. 
Though Hispanic men also had high dropout and incarceration rates, the 
overwhelming majority (81 percent) remained employed throughout this 
period.
    To sum up, after accounting for those who were incarcerated, under 
two-thirds (67 percent) of young black men in the civilian population, 
without a college education, were employed in 2004, compared with 84 
and 82 percent white and Hispanic men, respectively. Young black men 
were also as likely to graduate from high school as not. The 
overwhelming majority (72 percent) of the latter were not working in 
2004. By contrast the overwhelming majority of comparable white and 
Hispanic men were employed (79 and 81 percent, respectively), although 
dropping out of high school was uncommon for white men and quite common 
for the latter.
        the new policy environment and young less-educated males
    During the boom economy of the 1990s, Congress made four important 
policy changes that should be reconsidered to address the employment 
crises of young less-educated black men. First, through the Omnibus 
Budget Reconciliation Act of 1992 and the Personal Responsibility and 
Work Opportunities Act of 1996, Congress mandated in-hospital paternity 
establishment programs, increased funding for such programs, and 
required states to automate processes for establishing and enforcing 
child support orders. These changes increased the fraction of non-
marital children with paternity and child support orders (Mincy et al., 
2005a). Because nearly 70 percent of black children are born to 
unmarried parents, these changes substantially increased the proportion 
of young, less-educated black fathers who were required to pay child 
support.
    However, the second policy change was designed to assist unemployed 
and underemployed fathers (of children on welfare) who were unable to 
meet their child support obligations. The Welfare-to-Work Program, 
funded under the Omnibus Budget Reconciliation Act of 1997, provided 
funds for states to enroll these fathers in employment and training 
services. Unfortunately, funding for this program was discontinued in 
2004; so only the stiffer requirements remain. Disadvantaged, non-
resident fathers with no or low-earnings pay a higher proportion of 
their income in child support than their more advantaged counterparts. 
The former are more likely to default on their child support orders 
(Huang, et al., 2005). As a result of such defaults, and the interest 
and penalties imposed, arrearages are rapidly mounting in our nation's 
child support enforcement system. Much of these arrears are 
uncollectible because they fall disproportionately on fathers with 
annual earnings between $0 and $20,000 or those who work 
intermittently. In seven states (Florida, Michigan, New York, New 
Jersey, Ohio, Pennsylvania, Texas) 81 percent of the arrears were owed 
by parents who had no reported income for six quarters or their 
reported income was unstable (Sorensen 2007). Unless we require and 
enable disadvantaged fathers to meet their child support obligations, 
neither children nor taxpayers benefit. Instead, tougher requirements 
may simply reduce participation by these fathers in the formal labor 
market (Holzer, Offner et al. 2005).
    Third, in 1993 Congress expanded the Earned Income Tax Credit 
(EITC), which provided critical work incentives for less-educated women 
leaving welfare for work. This expansion helped to increase employment 
rates of less-educated black women and reduce poverty and welfare 
dependency among children, including black children (Blank and Haskins, 
2005). Unfortunately, non-resident fathers were eligible for a maximum 
EITC benefit of about $300.00 per year, a far lower work incentive than 
that available to custodial mothers.
    Finally, in 1998, Congress passed the Workforce Investment Act 
(WIA), which fundamentally altered the structure of youth and workforce 
development services that had existed under WIA's predecessor, the Job 
Training Partnership Act (JTPA). In 1998, the last full year of JTPA, 
the Department of Labor spent $4.5 billion for adult, youth, and 
dislocated worker programs (U.S. Department of Labor, 2005). Under WIA, 
this amount grew modestly until 2002, when it began to decline in to 
$5.1 billion in 2004. Over the same period, funding for the Job Corps 
grew consistently from $1.25 billion to $1.54 billion. By contrast, 
funding for programs serving disadvantaged adults declined slowly from 
$9.8 to $8.9 million. Besides the decline in funding, WIA restructured 
adult service programs so that they would be broadly available, and 
required participants to undergo assessment, job search, and intensive 
services before they could access training funds (Nightingale and 
Sorensen, 2006). As a result, the number of adults who actually 
received training declined by 17 percent between 1998, the last full 
year of JTPA, and 2003. Further, JTPA required states to spend 90 
percent of training funds on low-income participants, while WIA simply 
required that low income participants receive priority when training 
funds were limited. Thus, the proportion of low income persons 
retrieving training declined from 90 percent in 1998 to 68.4 percent in 
2003 (Frank and Minoff, 2003). Finally, after initially rising from $1 
billion to $1.38 billion between 1998 and 2002, funding for youth 
programs also declined to less than $1 billion in 2004.
    With virtually constant funding for employment training and youth 
services between 1998 and 2004, the five percentage point increase in 
the share of all such spending on Job Corps was almost exactly offset 
by the reduction in spending for youth and adult programs. Expansion of 
the Jobs Corps was likely due to its proven effectiveness (Haskins, 
2006); however, the Youth Opportunity Grant Program was eliminated 
before the results of an evaluation, which had just begun, were ever 
reported. Finally, the loss of the Youth Opportunity Grant Program was 
especially salient for young less-educated black men, because during 
its short period of operation, this program served 90,000, 14 to 21 
year old, mostly minorities in 36 of the nations' urban and rural 
neighborhoods, where crime, violence, and dropping out of high school 
are highly concentrated (Harris 2006). These are the same neighborhoods 
in which many young black men, who are the subjects of this hearing are 
raised (Mincy, 1994 and Galster et al., 1997). Together, with the 
elimination of the Welfare-to-Work program, these changes resulted in a 
dramatic decline in the number of less-educated black males receiving 
help, because in recent years many community-based youth development, 
workforce development and responsible fatherhood providers have cut 
back their services or closed their doors entirely.
                             moving forward
    Reversing the employment crises among young less-educated black 
males will require money, patience, a multigenerational perspective, 
and policies that are responsible and reasonable. My thinking on how to 
move forward relies heavily upon the experience of welfare reform. 
Congress was willing to spend upwards of $50 billion per year on the 
EITC, Medicare, child care, and SCHIP to facilitate welfare-to-work. 
The employment crisis among less-educated black males is no less 
serious a problem. Also, the welfare-to-work effort was no short-term 
victory; it began in with the 1967 amendments to the Social Security 
Act. Patience in this effort, though hopefully for less than 30 years, 
will also be required.
    Reversing the employment crises among less-educated black males is 
important, because the stakes for future generations are high. 
Therefore, our perspective must be multi-generational. Clearly, the 
black males most at risk are those who stop their education before 
completing high school diploma or some post-secondary schooling. Living 
with a single mother increases the likelihood of dropping out of school 
(Astone and McClanahan 1991). The effects of single parenting on 
dropping out of school are larger, the longer a child is in a single 
parent home and larger for boys and than girls (Krein and Beller 1988). 
Most black males who eventually drop out of school are raised by single 
mothers, who have little time to devote to their child's education, 
after working long hours at near poverty-level wages. These mothers and 
children need the active participation of father. Even nonresident 
fathers who are involved in the children's education increase their 
child's chances of getting A's in high school and the chances that 
their children graduate (Nord et al. 1997). Young children who receive 
frequent visits from their nonresident fathers are also less likely to 
exhibit problem behaviors such as anxiety and withdrawal, which are 
predictors of other negative outcomes of these children become 
adolescents (Mincy et al. 2005b). Thus, we must be concerned about the 
22- to 30-year-old high school dropout, because he can help prevent the 
same dismal outcome for his son or daughter.
    One set of policy changes can reach young black males before they 
become fathers. These include expansions in funding for the Job Corps, 
so that more young men can be served. Second, Congress should revive 
the Youth Opportunity Grant programs, which is still possible, because 
many of the 36 program sites have maintained some level of operation by 
seeking other sources of funding.
    However, policies that reach black men through their status as 
fathers are critical, because so many less-educated black males become 
fathers at a young age. These policies must be responsible and 
reasonable. Responsible policies will continue to require fathers to 
support their children financially; reasonable policies will enable 
those who are unemployed or underemployed to do so. Intermittent 
employment partially explains why black children are less likely to 
receive child support payments from their nonresident fathers than 
white children (Mincy and Nepomnyachy, 2007). Under current law, states 
may require fathers to participate in employment programs, if these 
fathers are unable to make child support payments. In the most 
rigorously evaluated responsible fatherhood demonstration project thus 
far, this requirement increased child support compliance in two ways. 
First, by ferreting out fathers who could find jobs on their own, but 
simply refused to pay (Doolittle, Knox, et al., 1998). Second, by 
increasing employment and earnings among fathers who could not find 
their own jobs, because they lacked a high school diploma or previous 
work experience (Miller and Knox 2001). Without federal subsidies, 
however, few states actually implement such programs. Therefore, 
Congress should restore the funding states used, under the Welfare-to-
Work program, to enroll fathers in employment and training programs.
    However, the Welfare-to-Work program, which was included in the 
Omnibus Budget Reconciliation Act, was a very insecure vehicle through 
which to support such services. Instead, the funding should be more 
fully integrated into our nation's employment and training programs for 
disadvantaged workers.
    Fortunately, the Senate (S. 1021) makes some progress in this 
direction by resisting proposals for WIA reauthorization (H.R. 27) to 
consolidate WIA youth, adult, and dislocated worker programs into a 
single program over which states would have broad discretion. The 
Administration's WIA Plus proposal would provide such broad state 
discretion in exchange for a gradual movement to 100 percent employment 
among workers trained with WIA funds. These proposals would only 
further reduce training resources available to low-income and 
disadvantaged workers, including less-educated black and youth. The 
Senate bill (S. 1021) also resists proposals in the House bill (H.R. 
27) to remove the priority given to low-income individuals, which 
exists in current law, when WIA training funds are limited. Instead, 
the House bill (H.R. 27) would give priority to unemployed workers, who 
represent a large population.
    Instead, Congress should also include underemployed and unemployed 
fathers, who are unable to meet their child support obligations, in the 
group of priority recipients for WIA training funds. Congress should 
also eliminate requirements that individuals must first participate in 
job search, intensive, and other services before they can access 
training funds. In this way, states could draw upon WIA funds to use 
their authority to require fathers unable to make child support 
payments to participate in employment programs.
    Finally, a more fundamental problem is that the average hourly 
earnings of adult men in the U.S. have not increased in 25 years 
(DeNavis-Walt, Proctor, et al., 2005). Moreover, wage inequality has 
increased, as wages at the top of the distribution have grown more 
rapidly than those at the bottom of the distribution, though this 
pattern attenuated somewhat after 1988 (Autor, Katz, et al. 2006). To 
counter the effects of low wages on single mothers leaving welfare for 
work, Congress substantially expanded the Earned Income Tax Credit. 
Another reasonable policy, which would help less-educated black men, 
would be a similar work incentive intended to help less-educated men 
support their children as well. Currently New York is the first state 
to provide a substantial earnings subsidy for non-custodial parents. 
Legislation pending in the Senate (S. 3267) would provide a similar 
subsidy to non-custodial parents in other states as well. Both the New 
York law and the Senate EITC proposal condition receipt of the EITC on 
payment of current child support; and therefore, they benefit children 
by providing fathers with incentives to work and pay.
    These efforts move in the right direction, but they may not go far 
enough. Employment instability reduces the annual earnings of black men 
and increases the likelihood that they default on their child support 
orders (Mincy and Nepomnyachy, 2007). Thus, earnings subsidies to non-
custodial parents should be provided upon proof of payment of their 
child support obligations during each month of the last year in which 
they were employed. This would provide a work incentive while 
acknowledging that unemployment is a major reason for child support 
noncompliance. Finally, I am working with New York State to assess the 
effects of its EITC program for noncustodial parents. Despite the 
extensive thought that went into the design of the legislation, an 
unanticipated problem, that will certainly affect black less-educated 
fathers, is that many noncustodial parents do not know the Social 
Security numbers of their children. In fact, because of the expansion 
of in-hospital paternity establishment programs, child support orders 
may be established for nonmarital children long before they get Social 
Security numbers. Therefore, child support enforcement administrators 
may be unable to supply this information, even if they wish to do so. 
The Social Security administration regards this information as 
extremely sensitive, and therefore, is reluctant to release this 
information to anyone. Therefore, a review and resolution of these 
privacy concerns needs to be undertaken to make earnings subsidies to 
noncustodial parents in more effective strategy.
                               references
Autor, David H., Lawrence F. Katz, and Melissa S. Kearney (2006). The 
    Polarization of the U.S. Labor Market. National Bureau of Economic 
    Research. Cambridge, MA: NBER WP 11986, January.
Astone, N. M. and S. S. McLanahan (1991). ``Family Structure, Coronal 
    Practices High School Completion.'' American Journal of Sociology 
    56(3): 309-320.
Bloom, D. and K. Sharewood (1994). Matching Opportunities to 
    Obligations: Lessons for Child Support Reforms from the Parents 
    Fair Share Pilot Phase. New York, MDRC.
DeNavas-Walt, C., B. D. Proctor, et al. (2005). Income, Poverty, and 
    Health Insurance Coverage in the United States: 2004. U.S.C. 
    Bureau, U.S. Government Printing Office, Washington, DC.
Frank, A. and E. Minoff (2005). Declining Chare of Adults Receiving 
    Training Under WIA are Low-Income or Disadvantaged. Washington, 
    D.C., Center for Law and Social Policy.
Galster, George, Mincy, Ronald B., and Tobin, Mitch (1997). ``The 
    Disparate Racial Neighborhood Impacts of Metropolitan Economic 
    Restructuring.'' Urban Affairs Quarterly 32, No.6: 797-824.
Doolittle, F., V. Knox, et al. (1998). Building Opportunities, 
    Enforcing Obligations: Implementation and Interim Impacts of 
    Parents' Fair Share. New York, MDRC.
Harris, L. (2006). Learning from the Youth Opportunity Experience: 
    Building Delivery Capacity in Distressed Communities. Washington, 
    D.C., The Center for Law and Social Policy.
Holzer, H. J., P. Offner, et al. (2005). ``Declining Employment Among 
    Young Black Less-Educated Men; The role of Incarceration and Child 
    Support.'' Journal of Policy Analysis and Management 24(2): 329-
    350.
Huang, Chien-Chung, Ronald B. Mincy, and Garfinkel, Irwin. (2005) 
    ``Child Support Obligations of Low-Income Fathers: Unbearable 
    Burden vs. Children's Well-Being.'' Journal of Marriage and the 
    Family 67,5, 1275-1286,
Krein, S. F. and A. Beller (1988). ``Educational Attainment of Children 
    from Single-Parent Families: Differences by Exposure, Gender, and 
    Race.'' Demography 25(2).
Miller, C. and V. Knox (2001). The Challenge of Helping Low-Income 
    Fathers Support Their Children: Final Lessons from Parents' Fair 
    Share. New York, MDRC.
Manski, C. F., G. D. Sandefur, et al. (1992). ``Alternative Estimates 
    of the Effect of Family Structure during Adolescence on High School 
    Graduation.'' Journal of the American Statistical Association 87.
Mincy, Ronald. B., (ed) (2006). Black Men Left Behind. Washington, 
    D.C., The Urban Institute.
Mincy, Ronald B. (1994). ``The Underclass: Concept, Controversy and 
    Evidence.'' In Sheldon Danziger, Daniel Weinberg, and Gary Sandefur 
    (eds.). Poverty and Public Policy: What do We Know? What Should We 
    Do? Cambridge: Harvard University Press.
____ and L. Nepomnyachy (2007). Child Support and Minority Fathers in 
    Fragile Families. New York, Columbia University School of Social 
    Work.
____, L. Nepomnyachy, et al. (2005a). ``In-Hospital Paternity 
    Establishment and Father Involvement in Fragile Families.'' Journal 
    of Marriage and the Family 67,3 783, 511-626.
____ and L. Nepomnyachy, et al. (2005b). Non-Resident Father 
    Involvement and Child Well-being. Annual Research Conference 
    Association for Public Policy and Management. Washington, D.C.
Nord, C. W., D. A. Brhimhall, et al. (1997). Fathers' Involvement in 
    Their Children's Schools. Washington, D.C., U.S. Department of 
    Education, National Center for Education Statistics.
Sorensen, E. (2007). Sources of Arrears in 7 States. R. B. Mincy. 
    Washington, D.C.
Western, B. and B. Pettit (2000). ``Incarceration and Racial Inequality 
    In Men's Employment.'' Industrial and Labor Relations Review 54(1): 
    3-16.
                               __________
    Prepared Statement of Robert Carmona, President and CEO, STRIVE
    I begin by thanking this committee for both the opportunity and 
privilege to appear before you today. A lot of what I describe today is 
not only based on experience through my work but is also of a very 
personal nature as I am an ex-offender and substance abuser. As one of 
four siblings, raised by my mother in a NYCHA project, I begin with the 
following: My mother was certainly able to teach me right from wrong, 
she could clothe me, feed me, house me. What she could not do was to 
teach me how to be a man. This phenomena of women serving as back-bone 
in our communities comes at a price. We've developed generations of 
young men that seek to define their manhood by what they observe on the 
street. For me, this became the guy with the biggest car, nicest 
clothes, and a string of beautiful women. Additionally, the larger 
society sends messages. Constantly. The messages can be contradictory. 
Society wants to ``talk like me, dress like me, rap like me'' but 
clearly, does not want to be me. The former, I derive from television, 
movies, the music industry, etc. The latter is the result of my day-to-
day existence. I'm followed wherever I go, viewed with suspicion in any 
interaction below 96 Street, on guard whenever a cop car passes me, no 
matter what I may be doing. In schools, I'm made to feel dumb or not 
worthy of educational attention. I'm moved from grade to grade when I 
know I haven't done the work. And so:
    The specific barriers that black/latino men face relating to 
employment can be categorized as personal and societal. Many black/
latino men develop a set of survival skills on the streets, creating a 
mindset that protects them and assists with coping with the 
aforementioned messages, but that can impede effective functioning in 
the larger community. Day-to-day decisions, relating to what a black/
latino man is going to do, and how, does not incorporate thinking 
beyond the immediate. As a result, the awareness of decision-making 
requirements, the ability to tolerate the feelings of ambiguity around 
choice, and the ability to exercise good judgment when making choices 
may all be impaired to varying degrees. This directly affects the 
ability to engage in long-term thinking, an orientation that presumes 
that individual have choices. This short-term orientation is reinforced 
as black/latino men are consumed with day-to-day survival concerns. 
These constraints on long-term planning seriously diminish the 
decision-making ability as it relates to employment. Attaching or re-
attaching to the workforce is a slow process for black/latino men, so 
they find the process particularly difficult to navigate.
    Another reaction to the messaging is that black/latino men will 
tend to function from a defensive posture, closing themselves off 
emotionally and developing preservation instincts that are guarded and 
suspicious. This is compounded by the seemingly adversarial 
relationship they develop with authority figures, be they law 
enforcement officers, school guidance counselors, teachers, or society 
at large. Combined, these adaptations almost always result in 
potentially unproductive, if not volatile, relationships in the work 
place. If a young black/latino male is able to navigate the hiring 
process, he may lose a job because of the inability to get along with 
peers or supervisors.
    At the nexus between personal and societal barriers are the family, 
friends and acquaintances which most black/latino men interact with on 
a daily basis. Families may have turned their backs on these young men 
for behaviors deemed self-destructive. Peers encourage them in the more 
negative aspects of day-to-day survival, including, but not limited to 
criminal activity. Friends may not understand how to support them to 
make positive changes in their life choices.
    Beyond the communities where black/latino men live, the broader 
society presents numerous obstacles that they must confront in trying 
to enter the workplace. Black/latino men live in communities of 
concentrated poverty. Beyond being affected by the social pressures 
described above, these communities are isolated from the economic 
mainstream and thus lack networks of employed people, access to the 
informal avenues most people use to hear about job openings, and 
working role models.
    Society at large tends to further distance black/latino men from 
the job market. There are long-standing stigmas about minority youth, 
young adults, and black/latino men in as being poor performers on the 
job. Additionally, if these men are ex-offenders, there are additional 
barriers keeping them from being considered for many types of 
employment. (Jobs or entire industries are out of reach, such as 
banking, law firms, jobs at airports, etc.) Many employers impose 
additional restrictions that go far beyond those imposed by law. Many 
employers will not hire former offenders even if they are legally 
permitted to do so, fearing problems among co-workers, liability 
problems, risk to property and image and reputation.
    Education and training options are limited for black/latino men as 
well, cutting off avenues for improving their work prospects over time. 
Federally funded supports for education and job training, for example, 
restrict benefits for drug offenders and those who did not participate 
in the Selective Service registration process. While not all black/
latino men will be affected by these policies, many of this group 
shirked their military registration responsibilities and may have aged 
out of the time period when they can still enroll. Without 
interventions, these obstacles block many black/latino men from 
integrating into society.
                             program model
    STRIVE has provided employment services for chronically unemployed 
adults since 1984. Black/latino men have been participants in the 
program since the beginning, and in every city where the STRIVE program 
has been replicated. In October, 2004, STRIVE operated a special 
initiative to place ex-offenders and individuals at risk of court 
involvement, using its entire network of programs. STRIVE's core 
program elements meet many of the needs of black/latino men in general 
and ex-offenders in particular, and programs have been adapted to 
target these populations.
    Four basic tenets underlie the model that STRIVE developed. The 
first is that significant numbers of people who have been considered 
outside the workforce or unemployable want to work and can succeed in 
employment.
    Second, personal development, not just technical skill, is crucial 
to success in the workplace. The ability to understand one's own 
identity, envision long-term goals, demonstrate personal 
responsibility, and manage one's own behavior, are central to creating 
positive experiences at work.
    Third, STRIVE believes that employment offers the best and quickest 
leverage on the problems of the urban poor. STRIVE recognizes that many 
(although not all) unemployed people can move quickly into real jobs 
and can benefit from that experience.
    The fourth tenet is that ongoing support is essential as people 
gradually stabilize their circumstances and move ahead. Resources must 
be available over time to help people work through challenges they 
encounter adapting to the workplace, integrating a job into the other 
areas of their lives, and looking toward future advancement. STRIVE 
recognizes that building a stable attachment to the workforce is a 
long-term, ongoing process rather than a one-time task.
    From these principles, STRIVE developed a focused portfolio of core 
services:

     Three to 4 weeks of highly interactive and structured training on 
personal responsibility, attitude, self-esteem, and many of the soft 
skills that employers expect from all workers, such as professionalism, 
communication, teamwork, and working with a supervisor.
     Opportunity after training for immediate placement in jobs with a 
future, but without ``guarantees,'' so that participants earn their 
newfound positions.
     Two-year follow-up support and tracking for all graduates to help 
them remain in the workforce and continue moving forward, and lifetime 
access to services (skill up-grade trainings) for those who want to 
take advantage of them.
                          attitudinal training
    The foundation for STRIVE's employment services is its unique 
attitudinal training program. Among the many issues that it addresses, 
STRIVE's attitudinal training helps people set long-term goals, learn 
to deal with authority, build new networks of supportive relationships, 
and overcome social alienation. Research on the effectiveness of 
vocational programs for individuals suggests that in addition to 
building traditional skills, it is also important to address motivation 
and lifestyle and to help establish connections with organizations in 
the community. The attitudinal training addresses these motivational 
and lifestyle issues.
    Attitude shapes and expresses who an individual is; at the same 
time, attitudes can be early warning signals of future behavior 
problems. Attitudinal training is a demanding blend of self-
examination, critical thinking, relationship building, affirmation, 
learning and teaching. The training connects to the most tangible of 
goals: employment. A training focused on attitude and attitudinal 
change zeroes in on unwanted behaviors (such as inflexibility, 
dishonesty, inattentiveness, defensiveness, or impatience) that become 
barriers to successful job placement and job retention, while refining 
positive attitudes such as personal initiative, teamwork, and the 
ability to take constructive criticism. This focus forms the central 
philosophy of the STRIVE approach.
    While academic achievement and work experience are necessary 
assets, they alone do not guarantee success in negotiating today's job 
market. Workplace managers and personnel directors filling entry-level 
jobs look for people who will fit into the workplace, get along with 
supervisors and co-workers, and display an eagerness to learn and 
contribute. These same attributes are essential to retaining jobs and 
career development.
    STRIVE's instructional approach and curriculum incorporate five 
facets that lead to attitudinal change and thus the development of 
positive workplace attributes: breaking through egos and emotional 
barriers; building trust; dealing with emotional ``baggage''; engaging 
in critical self-reflection; and building self-esteem for the future. 
Implemented as a whole, this process peels away the excuses that focus 
blame on everyone or everything else. ``The buck stops here'' with the 
participants and shows how they may have been carrying around baggage 
of past mistakes into all of their relationships and human 
interactions. This has not only been reflected in their work lives but 
may have been an albatross around their necks in their personal lives 
as well. Once participants begin to expand their self-awareness and 
personal accountability, they move easily to the aspects of the program 
that focus on developing strong general workplace skills like following 
instructions, listening, communicating, problem-solving, getting along 
with co-workers and working successfully with supervisors.
    While many programs have added ``soft skill'' components to their 
overall program designs, most do not use instructional approaches that 
reach below the surface and address this real process of change. 
Attitudinal change does not occur through traditional, academic 
instruction. Instead, it must be experiential, using the classroom 
itself as both a simulated work environment and a ``therapeutic 
community'' where members of the group recognize their commonalities 
and hold each other accountable for change. In the context of 
employment, trainers maintain a tight structure organized around basic 
workplace rules such as lateness, lack of professional attire or 
failure to complete assignments. Infractions have escalating 
consequences as participants learn to take responsibility for their own 
actions. Rather than talking intellectually about the requirements of 
the workplace, participants engage in a highly interactive learning 
environment where their daily performance provides the teaching and 
learning material.
    As a supportive group learning environment, the classroom becomes a 
place that encourages participants to talk openly about past 
inappropriate behaviors, actions, attitudes and habits that have caused 
unfortunate choices to be made. This communal sharing and non-
judgmental seeking of solutions provides participants with a number of 
experiences that they probably have never had: the notion that they are 
not alone and that they are accepted into the community regardless of 
past mistakes. An important aspect of the training period is creation 
of support networks and accountability mechanisms among the 
participants, further advancing the notion that the participants are 
responsible for their own success at work.
    To create this classroom experience, the sensitivity, experience, 
skill and empathy of the trainers is critical. Trainers' abilities to 
break through ``hard core'' barriers and fragile egos and to establish 
an atmosphere of trust, pride and dignity spell the success or failure 
for participants, and, indeed, the STRIVE Model itself. Trainers must 
facilitate participants through the often painful and always 
frightening process of self-discovery first, so that past mistakes will 
not be repeated. They must strike the proper balance, participant by 
participant, of challenge and support, and deftly move between the two 
as circumstances require. STRIVE has shown, through its 20-year history 
and its replication across the country, that it has the ability to 
consistently select and develop people to perform these difficult 
tasks.
                            social services
    Each client has access to a range of social services. The goal is 
to remove obstacles that could prevent a client from finding or 
retaining a job. Staff aid participants with issues such as:

     Helping clients attain the necessary documentation to secure 
employment (i.e. birth certificate, Social Security cards, State-issued 
ID cards, and Medicaid cards);
     Providing referrals to partner agencies for specific issues, such 
as substance abuse, mental health services, childcare and parenting 
resources, educational credentials, legal services, and housing 
concerns, to name a few, as well as to STRIVE's other programs such as 
support groups for women and for fathers;
     Providing short-term counseling, oftentimes enabling the client 
to graduate from the workshop. As the workshop contains an intensive 
introspective segment, issues often surface that could result in a 
client's inability to complete the workshop. Case Workers are able to 
head off such attrition, increasing the retention rates and the overall 
success of the program.

    Some STRIVE affiliates go beyond individual case management and 
referrals to outside resources. These include running support groups 
for various target populations, providing mental health counseling, 
emergency shelter, transitional housing, parenting classes, leadership 
development programs, and child care.
               job development and job placement services
    Each client in the STRIVE workshop is assigned a Job Developer and 
receives job placement services upon successful completion of the 
program. It is important to understand that STRIVE does not guarantee 
its graduates jobs, but it assures that they have access to job 
openings that they qualify for, and that employers will interview them. 
Job Developers use wide networks of employers who have appropriate, 
entry-level and semi-skilled positions. In particular, they look for 
employers who will hire participants with spotty and criminal 
backgrounds. Essential to the Job Developers' success is creating and 
maintaining good relationships with these employers. They meet with 
them regularly to discuss the advantages of working with STRIVE to fill 
any job openings they may have, check on the success of prior 
placements, and identify their new hiring needs.
    An important part of making a successful job placement is matching 
the client to the right opportunity. Parallel to the Case Worker 
relationship, each graduate of STRIVE's Core Training is assigned a Job 
Developer. The Job Developers work individually with each client to 
gather a wide range of employment-related information: education level, 
prior training, work experience, volunteer service, transferable skills 
developed at home or in other atypical settings, work preferences and 
career goals. Once they point clients toward suitable job openings, 
they follow through with all stages of the hiring process--helping 
clients research a company, setting up interviews, and following up 
with the employer and graduate until a decision is made.
                           graduate services
    Training and placement are followed by long-term support services. 
STRIVE's Graduate Services staff coordinate these services, and 
initiate the follow-up with clients for the first 2 years after 
graduation. After the 2 years when staff actively reach out to clients, 
STRIVE continues to offer a lifetime commitment to its participants; 
once individuals complete training, they can access the full spectrum 
of STRIVE services at any time. This helps to create and sustain a new 
social and professional network that can counteract negative influences 
they may encounter elsewhere in their lives. Follow up is most active 
during the tenuous first 3 months of employment, but continues with a 
minimum of quarterly contacts. Follow-up services are tailored to each 
individual and include phone contacts; in-person meetings; individual 
counseling sessions; referral services, and crisis intervention 
(referred to in Social Services); evening and weekend events (i.e. 
alumni forums and career development seminars); employer contact; 
upgrade/re-placement services; and occasional home visits. After the 
formal 2-year follow up period, alumni are still invited to participate 
in group activities and to check in to keep STRIVE abreast of their 
career advancements and promotions.
    Job re-placement and upgrade services are an important part of the 
follow-up work. Since many clients possess serious barriers to 
employment, they often are unable to secure any kind of employment 
before coming to STRIVE. For these individuals, their first job 
placement is often a position that allows them to establish a work 
history. STRIVE works with clients to help them see that this first job 
is only the beginning. Once they have established a work history, they 
can transition into more demanding jobs, and STRIVE serves as a 
continuing resource, helping graduates at all stages of their careers 
move to better opportunities. Approximately 30 percent of the job 
placements that STRIVE assists with each year are job changes that help 
clients stabilize or move ahead.
                           career advancement
    Once clients have begun working, STRIVE's CareerPath programs offer 
a selection of advanced, sector-based training opportunities for STRIVE 
graduates with sustained work experience (6 months to 1 year of steady 
employment) to further their careers. Black/latino men in particular 
can benefit from opportunities to acquire industry-specific technical 
skills because enhanced skills can help compensate for the stigma they 
carry. The skill-training programs that STRIVE graduates participate in 
are typically 9 to 24 weeks in length, and are generally conducted in 
the evenings, to allow the participants to maintain employment while 
studying. Careful analysis of the job market is needed before referring 
clients to training programs, to ensure that these clients do not waste 
time in training programs only to learn that they are excluded from 
employment because of legal constraints or pervasive employer 
practices. Training has been offered in fields such as computer 
assembly and repair, computer programming, construction trades, 
commercial driving instruction, and hospitality services. Many of the 
programs are provided by other agencies. In those cases, STRIVE's 
graduate services staff provide the coordination between programs.
                          program innovations
    Incorporation of a fatherhood training component can help men 
discover that they can successfully connect with their children. For 
many, this is a major motivating force. STRIVE programs in New York and 
Baltimore include fatherhood activities. An issue of particular concern 
to black/latino men is the issue of arrearages accrued while unemployed 
or imprisoned. The financial burdens of unpaid child support often 
discourage fathers from having any relationship with their children. 
After-hours support groups help fathers who seek to improve their 
relationships with their children and become more responsible and 
capable fathers. The programs address emotional needs, parenting 
techniques, practical issues of financial planning and mediation with 
the children's mothers, and provide access to legal assistance. The 
programs integrate offenders and non-offenders.
    Females face a different set of issues. The STRIVE New York 
affiliate has offered an 8-week, after-hours support group for women, 
to help them deal with the many issues that may hinder their success at 
home and in the workplace. The program is facilitated by a professional 
life-skills coach and aided by the STRIVE Social Services staff, and 
addresses such issues as single parenting, lack of childcare, emotional 
and physical abuse, presentation for the workplace, and public 
assistance/legal aid issues. Once clients graduate from the program, 
they are invited to join a mentoring program, where they are matched 
with successful career women in a relationship beneficial to both.
    Several STRIVE programs are exploring the use of non-profit 
temporary staffing agencies to provide work experience for people who 
have difficulties finding placements in the traditional job market. 
These include ex-offenders, who are excluded from many mainstream 
employment opportunities. Temporary staffing can offer a number of 
benefits. Temporary work may be an appropriate transition phase for 
individuals who are dealing with multiple barriers to employment, and, 
if the jobs are under the control of the service provider, they can 
create the chance for intensive supervision and guidance. Also, 
temporary jobs can give workers exposure to a variety of fields before 
committing to training in a particular industry. As an added benefit to 
the service provider, they can generate revenue that covers some or all 
of the cost of running the service. STRIVE affiliates in Flint, New 
York, Baltimore and San Diego are exploring the use of this strategy, 
with the Flint program already 12 months into operating such a program.
                    policy barriers for ex-offenders
    STRIVE's services make a difference for many of the people who 
participate. However, the broad environment of policies and practices 
that exists impedes success for others in the program, and is even more 
detrimental to individuals who cannot avail themselves of programs. 
STRIVE's work around the country raises a number of questions about 
policies and practices that should be examined to more widely improve 
the life-chances for black/latino men in general and ex-offenders in 
particular.
    Extending limitations on individuals who have been convicted of 
felonies beyond their prison sentences serves several purposes. On the 
one hand, barring people from working in fields related to a former 
offense addresses security needs of employers and customers who fear 
repeat criminal behavior. On the other hand, it appears that many post-
incarceration restrictions of ex-offenders are the result of a desire 
to reinforce retribution against criminals and serve as a more powerful 
deterrent to potential future offenders.
Have legal restrictions on hiring ex-offenders gone too far?
    While some research questions the impact of vocational training 
programs, there is much less doubt about the correlation between 
reduced recidivism and participating in legitimate employment that 
provides income to live on. Yet a variety of laws limit ex-offenders' 
options in entering the workforce. The rationale for these limitations 
is often clear, but the growing number of restrictions has not been 
reviewed for true relevance to performance of the affected jobs or 
protection of the public at large. Some laws prohibit people with 
specified offenses from working in particular occupations or 
industries. For example, banks are prohibited from hiring people with a 
range of breach of trust offenses, schools and other institutions that 
work with children are prohibited from hiring offenders with records of 
violent assaults, and so forth. With increased concerns about 
``homeland security'' and terrorist attacks, however, new jobs have 
been placed off limits to ex-offenders, with much less correlation 
between the desired improvement in safety and the potential worker's 
criminal record. For example, no one with any felony convictions can 
work as either a security screener at airports, or in any job that has 
access to the runways. The connection between a drug abuse conviction 
and terrorism seems limited at best, and appears to create little value 
for security while creating a significant restriction on individuals 
who have supposedly completed the punishment for past offenses.
Should there be time limits for how far back employers can check 
        criminal records?
    There are no Federal limitations on how far back employers can 
check job applicants' criminal records, and very few state limitations. 
Employers can use convictions far in the past--10, 15 years, or even 
older--to exclude people from employment. In effect, this means that an 
offender has never completed paying his or her debt to society. 
Further, the effect of the ability of employers to impose a virtually 
permanent ban on employment means the elimination of many avenues for 
rehabilitation or reform. Former offenders are never offered a second 
chance. With increased computerization of records and networking among 
agencies, this can mean life-time constraints on employment. Questions 
should be raised about the relative value to society of allowing ex-
offenders to work after a certain number of years versus the risks 
created by keeping them from viable, legitimate employment.
Should employers have access to arrest records?
    Currently, employers can access arrest records, not only records of 
convictions, as part of their background checks on job applicants. They 
can use this information in making their hiring decisions, and there 
are no legal limitations against their doing so. This raises 
significant questions about the presumption of innocence until proven 
guilty. In particular, with disproportionate arrest rates of black/
latino males, and consistent evidence of racial profiling, the access 
to arrest records seems to pose a highly inappropriate restriction 
based on race. State policies or legal test cases might be necessary to 
make changes in this area.
    Most employers STRIVE works with are not interested in the Federal 
bonding program. Should it be revamped? Or abandoned entirely, with the 
funds put to better use on behalf of the same population?
    The Federal Government offers a bonding program for certain ex-
offenders who obtain employment, protecting against damages for people 
who would not be covered by employers' regular insurance programs. 
However, with more than 20 years of experience, in 17 cities, working 
with more than 400 employers annually, STRIVE has found few companies 
who will agree to hire a former offender because of this bonding 
program. This lack of interest raises a number of questions about the 
efficacy of the program and why employers do not take advantage of it. 
There appears to be little administrative burden on the employers. The 
bonding is limited to 6 months in length, so the limited time may be of 
concern. The low level of insurance coverage might also be of concern. 
And, it may be that the perceived risk and stigma of hiring former 
offenders goes well beyond a question of insurance. In any event, it 
seems certain that usage of this program should be examined, and based 
on employers' reactions, the program should be revamped or funds 
reallocated for more effective interventions.
    What effect has the elimination of education programs in prisons 
had? What effect has limiting student loans and grants to drug 
offenders had in restricting educational advancement for former 
offenders? How does this diminish their chances for successful re-
entry?
    Most evidence shows a direct correlation between educational 
achievement and lowered recidivism. Unfortunately, in decisions that 
were the result of efforts by states to reduce deficits, combined with 
policies to ``get tough'' on crime, many states have eliminated their 
education programs in prisons. Programs that have been eliminated 
include opportunities to study for the GED exam, vocational training 
programs, and college-level studies. Research on reintegration has 
begun to stress the value of services provided before prisoners are 
released, but the reduction of educational programs seemingly ignores 
the value of such services in reducing recidivism.
    Similarly, limitations on access to education after release are 
likely to cause the same problems for those ex-offenders who want to 
make a change and pursue legitimate work. Restrictions on receipt of 
student aid by drug offenders, and exclusion of those who did not sign 
up for the Selective Service from job training programs, are likely to 
cause undesired consequences that increase crime and recidivism rather 
than reduce them.
    This concludes my testimony and again I thank this body for the 
opportunity.
  

                                  <all>

</pre></body></html>
